1a
APPENDIX A
United States Court of Appeals
For the First Circuit
No. 18-2154
IN RE: THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR PUERTO RICO, as representative for the Commonwealth of Puerto Rico;
THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR PUERTO RICO, as representative for the Puerto Rico Highways and Transportation Authority,
Debtors.
HON. WANDA VÁZQUEZ-GARCED (in her official
capacity);1 THE PUERTO RICO FISCAL AGENCY
AND FINANCIAL ADVISORY AUTHORITY,
Plaintiffs, Appellants,
v.
THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR PUERTO RICO; JOSÉ B.
CARRIÓN, III; ANDREW G. BIGGS; CARLOS M.
GARCÍA; ARTHUR J. GONZÁLEZ; JOSE R. GONZÁLEZ; ANA J. MATOSANTOS; DAVID A. SKEEL,
JR.; NATALIE A. JARESKO,

Pursuant to Fed. R. App. 43(c)(2), Hon. Wanda Vázquez-Garced
is substituted for former Governor Ricardo Rosselló Nevares.

1

2a
Defendants, Appellees,
OFFICIAL COMMITTEE OF UNSECURED CREDITORS,
Intervenor, Appellee.
APPEAL FROM THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF PUERTO RICO
[Hon. Laura Taylor Swain, U.S. District Judge2]
Before
Howard, Chief Judge,
Torruella and Kayatta, Circuit Judges.
Peter Friedman, with whom John J. Rapisardi,
Elizabeth L. McKeen, O’Melveny & Myers LLP, Luis
C. Marini-Biaggi, Carolina Velaz-Rivero, and Marini
Pietrantoni Muñiz LLC were on brief, for appellants.
Timothy W. Mungovan, with whom John E. Roberts, Guy Brenner, Martin J. Bienenstock, Stephen L.
Ratner, Mark D. Harris, Kevin J. Perra, and Proskauer Rose LLP were on brief, for defendants, appellees.
December 18, 2019

2

Of the Southern District of New York, sitting by designation.

3a
KAYATTA, Circuit Judge. The Puerto Rico
Oversight, Management, and Economic Security
Act ("PROMESA") established a board known as the
Financial Oversight and Management Board for
Puerto Rico (“the Board”).1 Under PROMESA sections 201 and 202 (“Sections 201 and 202”),2 the
Board developed and certified both a fiscal plan for
the Commonwealth and a Commonwealth budget
for fiscal year 2019-2020. Several provisions of both
the fiscal plan and the budget elicited objections
from the Governor of Puerto Rico, who, together
with the Puerto Rico Fiscal Agency and Financial
Advisory Authority (a Commonwealth entity), filed
a complaint against the Board in the United States
District Court for the District of Puerto Rico, seeking a declaration striking those provisions.
One of the provisions to which the Governor objected barred “reprogramming”: i.e., spending during the 2019-2020 fiscal year money that had been
authorized but not actually spent in a prior fiscal
year. In challenging the bar on reprogramming, the
Governor argued that because the Board had unsuccessfully recommended that the Governor agree to
such a bar, the Board could not thereafter adopt the
bar as binding over the Governor’s objection. In ruling on the Board’s motion to dismiss the complaint
for failure to state a claim, the district court sustained the bar on reprogramming, deciding as a
matter of law that the Board did not surrender its
1

48 U.S.C. § 2121.

2

48 U.S.C. §§ 2141-2142.

4a
powers to act unilaterally regarding a policy proposal by first seeking agreement from the Governor
and that, in any event, the Board’s “certification of
a budget under PROMESA precludes reprogramming of previously-authorized expenditures from
prior years.” In re Fin. Oversight & Mgmt. Bd. for
P.R., No. 18-ap-080, at 5-6 (D.P.R. Oct. 9, 2018) (order certifying certain aspects for interlocutory appeal). The district court did not dismiss the complaint as it applied to subjects other than the
Board’s ability to impose rejected recommendations
and to bar reprogramming. It nevertheless certified
for immediate appeal its dismissal of paragraphs 78
and 79 of Count I of the Complaint and paragraphs
88 and 91 of Count II. By the time of oral argument
on appeal, the parties’ positions more precisely limited the scope of appeal to the legal rulings upon
which the district court relied in rejecting the Governor’s challenge to the reprogramming bar.
We accept jurisdiction over this interlocutory appeal pursuant to PROMESA section 306(e)(3),
which, among other things, authorizes “an immediate appeal” when it “may materially advance the
progress of the case or proceeding in which the appeal is taken.” 48 U.S.C. § 2166(e)(3)(A)(iii). The potential use by the Government of so-called reprogrammed funds is apparently a subject of continuing dispute, and its resolution now will likely assist
the district court in assessing other existing and future disputes regarding the relationship between
the Board and the Governor.
I.

5a
We review a dismissal for failure to state a claim
de novo. Cardigan Mountain Sch. v. N.H. Ins. Co.,
787 F.3d 82, 84 (1st Cir. 2015). The reviewing court
“accept[s] as true all well-pled facts alleged in the
complaint and draw[s] all reasonable inferences in
[the plaintiff’s] favor.” Evergreen Partnering Grp.,
Inc. v. Pactiv Corp., 720 F.3d 33, 36 (1st Cir. 2013).
A Rule 12(b)(6) motion fails if the complaint contains “enough facts to state a claim to relief that is
plausible on its face.” Bell Atl. Corp. v. Twombly,
550 U.S. 544, 570 (2007).
A.
The Governor’s argument on this appeal rests in
the first instance on the Governor’s view of how
PROMESA section 205 (“Section 205”)3 works. Subsection 205(a) allows the Board to submit at any
time “recommendations to the Governor or the Legislature on actions the territorial government may
take to ensure compliance with the Fiscal Plan, or
to otherwise promote the financial stability, economic growth, management responsibility, and service delivery efficiency of the territorial government.” The rest of Section 205 contains no limitations on the nature or substance of the recommendations that the Board may make. Subsections
(a)(1)–(10) instead provide a non-exclusive list of
ten subject matters about which the Board may
make recommendations. Subsection 205(b) then requires the Governor or the legislature, as the case
may be, to accept or reject such recommendations
3

48 U.S.C. § 2145.

6a
and to provide explanations for rejecting any recommendations that the territorial government otherwise could have agreed to. The Governor contends
that the Board had previously recommended under
subsection 205(a) a prohibition on spending reprogrammed funds, among other things, and that the
Governor rejected that recommendation. Therefore,
the Governor reasons, the Board could not turn
around and unilaterally adopt the rejected recommendation as a binding policy in the certified fiscal
plan or budget.
This reasoning is puzzling to say the least. There
is no language at all in Section 205 suggesting that,
by first seeking the Governor's agreement on a matter, the Board somehow loses whatever ability it
otherwise had to act unilaterally on the matter. The
Governor
points,
instead,
to
subsection
201(b)(1)(K), allowing the Board to “adopt appropriate recommendations” in developing and submitting
a fiscal plan. Again, though, we see nothing in this
language that precludes the Board from adopting a
rejected recommendation if it otherwise has the
power to adopt the recommended action on its own.
Nor do we agree with the Governor’s contention
that we should draw a salient negative inference
from the fact that an early version of the draft bill
that became PROMESA gave the Board broader
power than it now has. See S. 2381, 114th Cong.
(2015); House Discussion Draft, 114th Cong. (Mar.
29, 2016). The Board’s argument here limits its asserted authority to the law as enacted, making no
claim to any broader powers considered but not enacted by Congress.

7a
We also reject the Governor's claim that the
Board’s reading of the statute renders Section 205 a
“dead letter.” There are certainly policies and actions that can be adopted and pursued only with the
Governor’s approval. And even with respect to matters on which the Board needs no consent, Section
205 serves as a reminder that PROMESA favors collaboration when possible. PROMESA encourages
the Board to engage in an iterative exchange with
the Governor in developing a fiscal plan and budget.
Indeed, subsections 201(c), (d)(2), and (e)(2) call for
the Governor to prepare the first draft of a fiscal
plan, while nevertheless reserving to the Board the
ultimate power to “develop and submit” a fiscal
plan, which is then deemed approved by the Governor.4 To rule that the Board loses its power to act
unilaterally on a matter by first seeking the Governor’s agreement would be to discourage the Board
from first seeking common ground and listening to
the Governor’s reaction before finally deciding to
act. Nothing to which the Governor points persuades us to construe the statute in such a manner.
In short, even assuming that the Board first
sought the Governor’s agreement to adopt a policy
(here a ban on reprogramming),5 the Board in doing
so certainly lost no power that it otherwise might

4

Section 202 contains similar provisions for budgets.

It appears doubtful from the record before us that the Board
ever actually recommended that the Governor agree to any bar
on action concerning reprogramming.

5

8a
have had to include that policy in the fiscal plan (or
budget).6
B.
As the foregoing makes clear, any evidence that
the Board recommended that the Governor adopt a
ban on certain reprogramming can make no difference to the outcome of this appeal. The relevant
question, instead, is whether the Board in the first
instance possessed the authority to impose unilaterally such a ban. As to that question, the Governor
contends that the Board lacks such authority for
three reasons: (1) PROMESA section 204(c) (“Section 204”)7 implicitly rejects the notion of a categorical bar to reprogramming because it allows the territorial government to, in the Governor’s words,
“seek reprogramming at any time,” albeit subject to
the Board’s approval; (2) the reprogramming suspension provisions are contrary to existing Puerto
Rico statutes and Article III, section 18 of the
Puerto Rico Constitution; and (3) the reprogramming suspension provisions are impermissible “substantive budget resolutions.”
These arguments all miss the mark. As the district court explained, PROMESA prohibits the Governor from spending any funds that are not budgeted regardless of whether the recommendation had

The Governor does not seem to have disclosed exactly what
funds its office proposes to use for what purposes.

6

7

48 U.S.C. § 2144.

9a
been adopted. We quote the district court's cogent
explanation:
It beggars reason, and would run contrary to
the reliability and transparency mandates of
PROMESA, to suppose that a budget for a fiscal
year could be designed to do anything less than
comprehend all projected revenues and financial resources, and all expenditures, for the fiscal year. Since a certified budget is in full effect
as of the first day of the covered period, means
and sources of government spending are necessarily rendered unavailable if they are not provided for within the budget. A prior year authorization for spending that is not covered by
the budget is inconsistent with PROMESA’s
declaration that the Oversight Board-certified
budget for the fiscal year is in full force and effect, and is therefore preempted by that statutory provision by force of Section 4 of
PROMESA. Accordingly, the Fiscal Plan language regarding suspension of authority to approve off-budget reprogramming may well be
superfluous, and in any event merely has the
same effect as PROMESA’s explicit provisions.
The exclusive scope of a certified budget also
makes pellucid the reason that Section 204(c)’s
reprogramming provision speaks only to the
then-current fiscal year -- the budget does not
make any other resources available for reprogramming.
In re Fin. Oversight & Mgmt. Bd. for P.R., 330 F.
Supp. 3d 685, 704 (D.P.R. 2018) (emphasis added).

10a
In short, the district court concluded that
PROMESA subsection 202(e)(4)(C) itself precludes
the territorial government from reprogramming
funds from prior fiscal years except to the extent
such reprogrammed expenditures are authorized in
a subsequent budget approved by the Board, and
any Puerto Rico law to the contrary is preempted by
virtue of PROMESA section 4. See 48 U.S.C. § 2103
(“The provisions of this chapter shall prevail over
any general or specific provisions of territory law,
State law, or regulation that is inconsistent with
this chapter.”). Simply put, if a certified budget is to
have “full force and effect,” subsection 202(e)(3)(C),
there can be no spending from sources not listed in
that budget, regardless of what any territorial laws
say. Here, it is undisputed that the budget adopted
by the Board does not authorize whatever unknown
expenditures that the Governor apparently has in
mind. The fact that subsection 204(c)(1) allows the
Governor to “request” a reprogramming of “any
amounts provided in a certified Budget” simply confirms that the final choice whether to allow reprogramming rests with the Board. In re Fin. Oversight
& Mgmt. Bd. for P.R., 330 F. Supp. 3d at 704 (emphasis in original) (quoting 48 U.S.C. § 2144(c)).8
And because the Governor cannot reprogram funds,
at least without the Board’s express permission, it
is irrelevant whether the proposals are “substantive
budget resolutions.” We therefore agree with the
We do not address the possibility that the Board may amend a
budget to make provision for use of unspent funds that the Board
identifies.

8

11a
district court that the reprogramming provisions in
the fiscal plan and budget are at worst superfluous
and are, in any event, entirely valid as consistent
with PROMESA, so the Governor’s arguments fail.
II.
For the foregoing reasons, we affirm the district
court's dismissal of the reprogramming suspension
provision challenges, and we remand for further
proceedings.

12a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO
In re:
PROMESA
Title III
THE FINANCIAL OVERSIGHT AND MANAGEMENT
BOARD FOR PUERTO RICO,
Case No. 173283 (LTS)
(Jointly AdminAs representative of
istered)
THE COMMONWEALTH OF
PUERTO RICO,
Debtors.1
HON. RICARDO ANTONIO
ROSSELLÓ NEVARES (in his
official capacity), and THE
PUERTO RICO FISCAL

Adv. Proc. No.
18-080-LTS in

The Debtors in the underlying Title III Case, along with each
Debtor’s respective Title III case number and the last four (4)
digits of each Debtor’s federal tax identification number, as applicable, are the (i) Commonwealth of Puerto Rico (Bankruptcy
Case No. 17 BK 3283-LTS) (Last Four Digits of Federal Tax ID:
3481); (ii) Puerto Rico Sales Tax Financing Corporation (“COFINA”) (Bankruptcy Case No. 17 BK 3284-LTS) (Last Four Digits of Federal Tax ID: 8474); (iii) Puerto Rico Highways and
Transportation Authority (“HTA”) (Bankruptcy Case No. 17 BK
3567-LTS) (Last Four Digits of Federal Tax ID: 3808); (iv) Employees Retirement System of the Government of the Commonwealth of Puerto Rico (“ERS”) (Bankruptcy Case No. 17 BK 3566LTS) (Last Four Digits of Federal Tax ID: 9686); and (v) Puerto
Rico Electric Power Authority (“PREPA”) (Bankruptcy Case No.
17 BK 4780-LTS) (Last Four Digits of Federal Tax ID: 3747).

1

13a
AGENCY AND FINANCIAL
ADVISORY AUTHORITY,
Plaintiffs,
v.
THE FINANCIAL OVERSIGHT AND MANAGEMENT
BOARD FOR PUERTO RICO;
JOSÉ B. CARRIÓN, III; ANDREW G. BIGGS; CARLOS M.
GARCÍA; ARTHUR J. GONZÁLEZ; JOSE R. GONZÁLEZ;
ANA J. MATOSANTOS; DAVID A. SKEEL, JR.; and NATALIE A. JARESKO (in their
official capacities),
Defendants.

17 BK 3283LTS

14a
CORRECTED OPINION AND ORDER GRANTING
IN PART DEFENDANTS’
MOTION TO DISMISS THE COMPLAINT∗
APPEARANCES:
MARINI PIETRANTONI MUNIZ LLC

O’NEILL & BORGES
LLC

By: Luis C. MariniBiaggi
Carolina Velaz-Rivero
MCS Plaza, Suite 500
255 Ponce de Leon Ave.
San Juan, Puerto Rico
00917
O’MELVENY & MYERS
LLP

By: Herman D. Bauer
250 Munoz Rivera Avenue, Suite 800
San Juan, P.R. 009181813

By:

By:

John J. Rapisardi
William J.
Sushon
7 Times Square
New York, New York
10036
and
Peter Friedman
1625 Eye Street, NW
Washington, D.C. 20006

PROSKAUER ROSE
LLP
Martin J.
bienenstock
Stephen L. Ratner
Mark D. Harris
Timothy W.
Mungovan
Kevin J. Perra
Eleven Times Square
New York, N.Y. 10036
and

This opinion and order corrected certain typographical errors
in and supersedes the Opinion and Order Granting in Part Defendants’ Motion to Dismiss the Complaint (Docket Entry No.
33).

∗

15a
and
Elizabeth L.
McKeen
610 Newport Center
Drive, 17th Floor
Newport Beach, California 92660
Attorneys for Plaintiffs
Governor Rosselló Nevares and the Puerto
Rico Fiscal Agency and
Financial Advisory Authority

Guy Brenner
1001 Pennsylvania Ave.,
NW
Suite 600 South
Washington, DC 20004
Attorneys for Defendants the Financial Oversight and Management
Board for Puerto Rico,
José B. Carrión III, Andrew G. Biggs, Carlos
M. García, Arthur J.
González, José R. González, Ana J. Matosantos, David A. Skeel, Jr.,
and Natalie A. Jaresko
(in their official capacities)

16a
LAURA TAYLOR SWAIN,
United States District Judge
Before the Court is the Defendants’ Motion Pursuant to Fed. R. Civ. P. 12(b)(1) and 12(b)(6) to Dismiss Plaintiffs’ Complaint Dated July 5, 2018
(Docket Entry No. 16 in Adversary Proceeding No.
18-00080, the “Motion”),2 filed by the Financial
Oversight and Management Board for Puerto Rico
(the “Oversight Board”), José B. Carrión III, Andrew G. Biggs, Carlos M. García, Arthur J. González, José R. González, Ana J. Matosantos, David A.
Skeel, Jr., and Natalie A. Jaresko (collectively, and
together with the Oversight Board, the “Defendants”). The Court heard argument on the Motion on
July 25, 2018 (the “Hearing”), and has considered
carefully all of the arguments and submissions
made in connection with the Motion.3 Except as explained below, the Court has subject matter jurisdiction of this action pursuant to 48 U.S.C. § 2166.
For the following reasons, the Motion is granted in
part and denied in part.4
All docket entry references are to entries in Adversary Proceeding No. 18-00080, unless otherwise specified.

2

The Court has received and reviewed the Tendered Legal Brief
of Amicus Curiae Popular Democratic Party Caucus of the Puerto
Rico Senate in Support of the Commonwealth of Puerto Rico
(Docket Entry No. 31, Ex. A, the “Amicus Brief”). The motion for
leave to file the brief is granted, and the Court has considered
the Amicus Brief in connection with its determination of the Motion to dismiss the Complaint.

3

The Court also heard oral argument at the Hearing in connection with a motion to dismiss the complaint in Rivera-Schatz et
al. v. Financial Oversight and Management Board for Puerto
4

17a
I.
BACKGROUND
The following recitation of facts is drawn from
the Adversary Complaint for Declaratory and Injunctive Relief (Docket Entry No. 1, the “Complaint”), filed on July 5, 2018, by the Honorable Ricardo Antonio Rosselló Nevares (the “Governor”) in
his official capacity as the Governor of the Commonwealth of Puerto Rico (the “Commonwealth” or
“Puerto Rico”) and the Puerto Rico Fiscal Agency
and Financial Advisory Authority (“AAFAF” and,
together with the Governor, “Plaintiffs”), except
where otherwise noted.
A. Certification of the Fiscal Plan and Budget
On June 30, 2016, the United States Congress
(“Congress”) enacted the Puerto Rico Oversight,
Management,
and
Economic
Stability
Act
(“PROMESA”) to “stabilize Puerto Rico’s economy
by establishing oversight of the Government’s
budget and fiscal policies and by providing a mechanism for the Commonwealth to restructure its
debts.” (Compl. ¶ 21.)5 PROMESA created the Over-

Rico et al., 18-AP-081-LTS (D.P.R.) (the “Legislative Assembly
Lawsuit”), an adversary proceeding filed in the Commonwealth’s
Title III case that raises issues related to those argued in connection with this Motion. The Court will address separately the
motion to dismiss the Legislative Assembly Lawsuit.
PROMESA is codified at 48 U.S.C. § 2101 et seq. References to
“PROMESA” section numbers in the remainder of this opinion
are to the uncodified version of the legislation.
5

18a
sight Board as “an entity within the territorial government” of Puerto Rico and tasked the Oversight
Board with developing “a method [for Puerto Rico]
to achieve fiscal responsibility and access to the capital markets.” 48 U.S.C.A. §§ 2121(a), (c)(1) (West
2017). In aid of that purpose, PROMESA empowers
the Oversight Board to, among other things, certify
the fiscal plans and budgets of the Commonwealth
and its instrumentalities, override Commonwealth
executive and legislative actions that are inconsistent with certified fiscal plans and budgets, and
commence a bankruptcy-type proceeding in federal
court on behalf of the Commonwealth or its instrumentalities. Id. §§ 2141–2152; 2175(a).
On May 3, 2017, the Oversight Board commenced a debt adjustment proceeding on behalf of
the Commonwealth by filing a petition in this Court
under Title III of PROMESA.6 (See Docket Entry
No. 1 in Case No. 17-03283). Shortly thereafter, the
Oversight Board commenced Title III proceedings
on behalf of certain Puerto Rican government instrumentalities.
Between January 24, 2018, and April 5, 2018,
the Governor submitted four versions of a proposed
Commonwealth fiscal plan for fiscal year 2019 to the
Oversight Board for its approval. (Compl. ¶¶ 46, 47,
48, 50 (detailing fiscal plans submitted by the Governor to the Oversight Board on January 24, 2018,
February 12, 2018, March 23, 2018, and April 5,
2018).) The Oversight Board rejected each proposed
6

See 48 U.S.C.A. §§ 2164; 2172-2174 (West 2017).

19a
fiscal plan. (Id. ¶¶ 46-51.) On April 19, 2018, in connection with the Oversight Board’s rejection of the
Governor’s fourth proposed Commonwealth fiscal
plan (the “Governor’s April 2018 Fiscal Plan”), the
Oversight Board certified its own fiscal plan for the
Commonwealth (the “April 2018 Board Fiscal Plan”)
pursuant to Sections 202(d)(2) and 202(e)(2) of
PROMESA. (Id. ¶ 51.) The April 2018 Board Fiscal
Plan was substantially similar to the Governor’s
April 2018 Fiscal Plan, but included certain policy
initiatives that had previously been rejected by the
Governor and that accounted for an additional 1.7
percent of the incremental savings contemplated by
the April 2018 Board Fiscal Plan. (Id.)
On April 26, 2018, the Oversight Board sent the
Governor a letter dated April 24, 2018, setting forth
a proposed schedule for developing and certifying
the Commonwealth’s fiscal year 2019 budget and a
revenue forecast for fiscal year 2019. (Id. ¶ 56.) On
May 2, 2018, the Oversight Board sent a letter to
AAFAF (i) describing detailed expense reductions
and right-sizing measures aimed at achieving savings of $345 million in fiscal year 2019, (ii) including
a draft budget resolution for adoption by the Legislative Assembly of the Commonwealth of Puerto
Rico (the “Legislature”), and (iii) proposing detailed
expense measures that set forth line-by-line
amounts for expense items, including right-sizing
measures, healthcare measures, subsidy reductions, and specific personnel and non-personnel expenditure amounts for each Commonwealth agency
or instrumentality covered by the Commonwealth
budget. (Id. ¶ 57.) On May 4, 2018, the Governor

20a
submitted a proposed Commonwealth budget for fiscal year 2019 (the “Governor’s Proposed Budget”) to
the Oversight Board. (Id. ¶ 58.)
On May 6, 2018, the Governor submitted a written statement, pursuant to Section 205(b)(3) of
PROMESA, to the Oversight Board, the President
of the United States, and leaders of Congress. (Id. ¶
59.) In this written statement, the Governor explained that certain “policy initiatives” outlined by
the Oversight Board in connection with the April
2018 Board Fiscal Plan were, in fact, “recommendations” under Section 205 of PROMESA that could
not be imposed by the Oversight Board on the
elected government of Puerto Rico. (Id.) Specifically,
the Governor identified five measures included in
the April 2018 Board Fiscal Plan that he had rejected: (i) private-sector human-capital and labor
reforms, (ii) pension reforms, (iii) government
agency consolidations, (iv) compensation related initiatives, and (v) reductions in appropriations to the
University of Puerto Rico (“UPR”). (Id.) The Governor asserted that the Oversight Board lacks power
to impose these measures on the Government.7 (Id.)
On May 10, 2018, the Oversight Board issued a
notice of violation under PROMESA Section
202(c)(1)(B)(i) to the Governor, stating that the Governor’s Proposed Budget was not compliant with the
April 2018 Board Fiscal Plan and requesting that
the Governor submit a revised budget. (Id. ¶ 60.)
As used in this Opinion and Order, the term “the Government”
is a collective reference to the Governor and members of the Legislative Assembly.

7

21a
The notice identified several inconsistencies between the April 2018 Board Fiscal Plan and the
Governor’s Proposed Budget, including (i) the Governor’s failure to include UPR and workforce development reinvestments generated from comprehensive labor reform, (ii) the Governor’s inclusion of
Christmas bonuses for government employees, and
(iii) a number of informational deficiencies in the
Governor’s Proposed Budget. (Id.)
After a period of negotiations, on May 20, 2018,
the Governor and the Oversight Board agreed that
the Oversight Board would amend and recertify the
April 2018 Board Fiscal Plan to include a $101 million reduction of the projected annual surplus for
fiscal year 2019 and to exclude the Oversight
Board’s prior measures reducing the minimum
number of vacation and sick days for private sector
employees and eliminating Christmas bonuses. (Id.
¶ 63.) In exchange, the Governor agreed to present
a bill to repeal Puerto Rico’s Wrongful Termination
Act, Law No. 80 of May 30, 1976 (as amended, “Law
80”), for approval by the Legislature by June 27,
2018. (Id.) On May 28, 2018, the Governor submitted to the Legislature a standalone bill to repeal
Law 80. (Id. ¶ 64.) On May 30, 2018, the Oversight
Board certified an amended version of the April
2018 Board Fiscal Plan, which contained the
agreed-upon revisions. (Id. ¶ 65.) The Oversight
Board delivered a compliance certification letter
and a copy of the May 30, 2018, fiscal plan to the
Governor, the President of the Senate of Puerto

22a
Rico, and the Speaker of the House of Representatives of Puerto Rico as required by PROMESA Section 201(e)(2). (Id. ¶ 66.)
On June 4, 2018, the Oversight Board submitted
a letter to the Honorable Jorge Navarro Suárez, the
President of the Government Commission of the
Puerto Rico House of Representatives, stating that,
if the Legislature failed to repeal Law 80, the Oversight Board would revert to its April 2018 Board
Fiscal Plan and would submit a budget consistent
with that earlier fiscal plan to the Governor and the
Legislature. (Id. ¶ 67.) The Oversight Board also
stated its intent, if Law 80 were not repealed, to impose a budget eliminating certain appropriations
and maintaining the elimination of the Christmas
bonus and cuts to the Legislature and Judiciary
budgets. (Id.)
After the failure of the Legislature to repeal Law
80, the Oversight Board certified a revised Commonwealth fiscal plan on June 29, 2018 (the “Fiscal
Plan,” Compl. Ex. 5) that is substantially similar to
the April 2018 Board Fiscal Plan. (Id. ¶ 68.) The
Oversight Board delivered a compliance certification letter as required by PROMESA Section
201(e)(2) on the same day. (Id.)
On June 29, 2018, the Puerto Rico House of Representatives and the Senate of Puerto Rico voted to
approve a fiscal year 2019 Commonwealth budget,
which the Governor later signed and which did not
provide for Law 80’s repeal. (Id. ¶ 70.) On June 30,
2018, the Oversight Board certified a separate Commonwealth budget for fiscal year 2019 (the

23a
“Budget”). (Id. ¶ 71.) The Budget incorporates four
legislative resolutions, two of which are at issue
here: (i) a joint resolution authorizing expenditures
from the General Fund (the “General Fund Resolution,” Compl. Ex. 6), and (ii) a joint resolution authorizing expenditures for certain special, permanent, or temporary programs (the “Special Resolution,” Compl. Ex. 7 and, together with the General
Fund Resolution, the “Challenged Budget Resolutions”). (Id. ¶ 72.)
B. The Challenged Provisions
The Fiscal Plan and the Challenged Budget Resolutions collectively incorporate certain measures
(the “Challenged Provisions”) which are challenged
by the Governor. First, both the Fiscal Plan and the
Challenged Budget Resolutions provide for the suspension of any power of the Puerto Rico Treasury,
budget, and financial authorities to authorize reprogramming or extensions of budget appropriations
from prior fiscal years. (Id. ¶¶ 69, 73.) Specifically,
Section 11.2.1 of the Fiscal Plan provides that:
Any power of [the Office of Management and
Budget (“OMB”)], [AAFAF] or the Department
of the Treasury, including the authorities
granted under [Act 230], to authorize the reprogramming or extension of appropriations of
prior fiscal years is hereby suspended. Notwithstanding this section, the appropriations
approved in the budget certified by the Oversight Board may be modified or reprogrammed
with the approval of the Oversight Board.

24a
(Fiscal Plan § 11.2.1.) Section 7 of each Challenged
Budget Resolution includes identical language, and
Section 10 of the General Fund Resolution further
provides that OMB may withhold from any of the allocations to the Commonwealth’s executive agencies
“the amounts necessary to pay for the pay-go contribution, unemployment insurance, or taxes withheld
from their employees, when OMB determines that
such a withholding is necessary to ensure compliance
with these obligations by the agencies concerned. Any
such amounts withheld by OMB shall solely be reprogrammed to pay the corresponding outstanding obligations . . . as allowed in this Section.” (General Fund
Resolution §§ 7, 10; Special Resolution § 7.)
The second Challenged Provision is a Fiscal Plan
provision that is characterized by Plaintiffs as requiring government agency consolidations (the
“Consolidation Measure”). Section 12.1 of the Fiscal
Plan, which is captioned “Changes to agency operational expenditures,” includes the following language: “the right-sized Government of the future
should wherever possible reflect mainland U.S.
benchmarks in terms of both number of agencies
and size of agencies themselves to deliver services
in as efficient a manner possible . . . the Government
should consolidate the 114 agencies into 22 groupings and a number of independent agencies.” (Fiscal
Plan § 12.1 (emphasis removed).)
The third Challenged Provision is a section of the
Fiscal Plan that contemplates automatic budget reductions and workforce reductions for fiscal years
following any such year in which the third-quarter
actual figures for “efficiency savings” for particular

25a
agency groupings fall short of budgeted projections.
Section 12.3 of the Fiscal Plan provides that:
If, after the third fiscal quarter of any fiscal
year there remains unrealized agency efficiency savings for any grouping relative to the
projected agency efficiency savings in the New
Fiscal Plan for the applicable fiscal year, the
Oversight Board will automatically reduce the
budget for the corresponding grouping for the
following fiscal year in the amount equal to the
unrealized agency efficiency savings. In particular, if the Oversight Board determines that
there is material underperformance in agency
efficiency savings relative to the projections set
forth in the New Fiscal Plan, intentional workforce reductions will be necessary to meet the
agency efficiency savings targets set forth
herein.
(Fiscal Plan § 12.3.)
The fourth category of Challenged Provisions includes the following (collectively, the “Employee
Benefits Reduction Measure”): (i) the Fiscal Plan’s
characterization of a hiring freeze, limitations on
paid holidays, restrictions on sick and vacation
days, and elimination of the Christmas bonus as
policies that the Government must continue, and (ii)
the Challenged Budget Resolutions’ alleged elimination of the Christmas bonus. (Plaintiffs’ Opposition to Defendants’ Motion to Dismiss (the “Opposition”), Docket Entry No. 22, § II.C.1.) The Christmas bonuses are mandatory under Puerto Rico’s

26a
Christmas Bonus Act, Law No. 148 of June 30, 1969,
as amended. (Compl. ¶ 69.)
The fifth Challenged Provision requires specific
types of corrective action in the event of budgetary
noncompliance, and declares that spending in excess of budgetary appropriations is a violation of an
existing Puerto Rico criminal statute. At issue in
this regard are four provisions of the Challenged
Budget Resolutions. Section 15 of General Fund
Resolution and Section 14 of the Special Resolution
provide that:
If during the fiscal year the government fails to
comply with the liquidity and budgetary savings measures required by the New Fiscal Plan
for Puerto Rico certified by the Oversight
Board, the Government shall take all necessary
corrective action, including the measures provided in PROMESA sections 203 and 204.
(General Fund Resolution § 15; see also Special Resolution § 14.) Additionally, Section 16 of the General
Fund Resolution and Section 15 of the Special Resolution prohibit territorial entities from “spending or
encumbering during fiscal year 2019 any amount that
exceeds the appropriations authorized for such year,”
and provide that any “violation of this prohibition
shall constitute a violation of [the Resolutions] and
Act 230.” (General Fund Resolution § 16; see also Special Resolution § 15.)
Plaintiffs assert that, in his May 6, 2018 communication to the Oversight Board and federal government officials, the Governor had objected to each of

27a
the Challenged Provisions as a “non-binding recommendation” under Section 205(a) of PROMESA, and
that the communication constituted a formal rejection of each of the Challenged Provisions pursuant
to the procedures set forth in Section 205(b) of
PROMESA.8 (See Opp’n at 27.) Plaintiffs argue that
compliance with such rejected recommendations
cannot be mandated by a fiscal plan or a budget imposed unilaterally by the Oversight Board.
II.
DISCUSSION
Defendants move pursuant to Federal Rules of
Civil Procedure 12(b)(1) and 12(b)(6)9 to dismiss
Plaintiffs’ Complaint for lack of subject matter jurisdiction and for failure to state a claim upon which
relief may be granted. A court presented with motions to dismiss under both Rules 12(b)(1) and
12(b)(6) should ordinarily decide jurisdictional
questions before addressing the merits. Deniz v.
Municipality of Guaynabo, 285 F.3d 142, 149 (1st
Cir. 2002). The party invoking the jurisdiction of a
federal court carries the burden of proving the existence of proper grounds for the exercise of jurisdiction. Johansen v. United States, 506 F.3d 65, 68
(1st Cir. 2007). The Court also has an independent

Sections 205(a) and (b) of PROMESA are discussed in further
detail infra.

8

Rules 12(b)(1) and 12(b)(6) are applicable to this adversary proceeding pursuant to Federal Rule of Bankruptcy Procedure 7012.

9

28a
duty to assess whether it has subject matter jurisdiction of an action. See Fed. R. Civ. P. 12(h)(3);
FW/PBS, Inc. v. City of Dallas, 493 U.S. 215, 231
(1990).
Plaintiffs’ Complaint pleads the following three
Counts. In Count One, Plaintiffs seek declarations
that certain Challenged Provisions incorporated
into the Fiscal Plan are merely recommendations
that cannot be mandated and enforced by the Oversight Board, and general declarations regarding the
status of certain types of Fiscal Plan provisions as
non-binding recommendations. In Count Two,
Plaintiffs seek similar relief with respect to certain
Challenged Provisions incorporated into the Challenged Budget Resolutions and certain types of
budgetary provisions. In Count Three, Plaintiffs
seek injunctive relief prohibiting the implementation and enforcement of the Fiscal Plan and Challenged Budget Resolution provisions Plaintiffs characterize as policy recommendations that the Governor has rejected, and such provisions that Plaintiffs
contend exceed the Oversight Board’s powers under
PROMESA’s budget-related provisions.
A. Rule 12(b)(1): Subject Matter Jurisdiction
The crux of the issues raised in Plaintiffs’ Complaint is whether PROMESA grants the Oversight
Board the power to include mandates in the Fiscal
Plan and Budget that are premised on public policy
decisions with which the Governor of Puerto Rico
does not agree. Related to this issue is the relationship between the Oversight Board’s fiscal plan and
budgetary powers and pre-existing Puerto Rico law

29a
– whether the Oversight Board’s actions can modify,
suspend, or override certain features of Puerto Rico
law that were in place prior to the enactment of
PROMESA. Defendants assert that the declaratory
and injunctive relief Plaintiffs seek would result in
decertification of the certified Fiscal Plan, and that
the Court is prohibited from entertaining their
claims by Section 106(e) of PROMESA. (Docket Entry No. 17 (“Defs.’ Mem.”), at 27.) Defendants also
contend that Plaintiffs’ requested declarations are
improper requests for advisory opinions. (Id.)
1. Limitations on Jurisdiction Under
PROMESA Section 106(e)
Section 106(e) of PROMESA provides that:
There shall be no jurisdiction in any United
States district court to review challenges to the
Oversight Board’s certification determinations
under this [Act].
48 U.S.C.A. § 2126(e) (West 2017). Defendants argue
that the Court lacks subject matter jurisdiction of
Plaintiffs’ claims because they implicitly seek invalidation of the certified Fiscal Plan and Budget.10
Defendants also argue that Plaintiffs are judicially estopped
from asserting that the Court has jurisdiction of their claims in
this adversary proceeding because Plaintiffs argued in a prior
adversary proceeding that fiscal plans and budgets are beyond
challenge under Section 106(e) of PROMESA. (Defs.’ Mem. at
28.) In response, Plaintiffs argue that they are not judicially estopped from asserting that jurisdiction exists in this case because the issues in this case are not identical to those in prior
cases. (Opp’n at 29.) As explained herein, Plaintiffs’ positions are
not truly inconsistent because Plaintiffs advance different legal
arguments in this adversary proceeding. Accordingly, Plaintiffs
10

30a
(Defs.’ Mem. at 28 (citing Ambac Assurance Corp. v.
Commonwealth of P.R. (In re Fin. Oversight & Mgmt.
Bd. for P.R.), 297 F. Supp. 3d 269, 284 (D.P.R. 2018)
(holding that the Court lacks subject matter jurisdiction of claims that “implicitly or explicitly[] seek invalidation of the certification of the Fiscal Plan”)).)
Plaintiffs assert, however, that they “do not challenge
the [Oversight] Board’s certification decisions or contest that the fiscal plan meets PROMESA’s certification criteria.” (Opp’n at 29.) Instead, Plaintiffs argue,
the “sole issue presented by this action is the effect”
and enforceability of certain provisions of the certified
Fiscal Plan and Challenged Budget Resolutions. (Id.
at 28.) Plaintiffs’ characterization of their claims is accurate and, for the following reasons, Section 106(e)
does not preclude the Court from exercising jurisdiction of this action.
Although PROMESA grants the Oversight Board
exclusive authority to certify fiscal plans and “also
insulates the Oversight Board’s certification determinations . . . from challenge by denying all federal
district courts jurisdiction to review such challenges,” Section 106(e) does not deprive the district
court of jurisdiction to entertain all conceivable litigation touching on certified documents. See Ambac,
are not judicially estopped from asserting that jurisdiction exists
here. See United States v. Levasseur, 846 F.2d 786, 794 (1st Cir.
1988) (finding judicial estoppel did not apply because “the doctrine is applied only when the positions are truly inconsistent . .
. for the invocation of the doctrine, the two positions must be diametrically opposed”) (internal citations omitted). In any event,
the Court is obligated to make its own determination as to subject matter jurisdiction. See Fed. R. Civ. P. 12(h)(3).

31a
297 F. Supp. 3d at 283-84 (holding that PROMESA
Section 106(e) did not preclude consideration of federal constitutional challenges to fiscal plan). Here,
Plaintiffs seek determinations as to whether
PROMESA grants the Oversight Board authority to
promulgate certain provisions of the certified Fiscal
Plan and Budget, and as to whether such challenged
provisions of those documents are merely, as a matter of law, recommendations that the Governor and
Legislature are free to ignore. There is a material
difference between an action seeking review of the
Oversight Board’s determination that a plan or
budget meets the requirements for certification or
is compliant with particular aspects of PROMESA
Section 201(b) (specifying required features of a fiscal plan), and litigation seeking clarification as to
the effect of particular provisions of a certified fiscal
plan or budget on preexisting Puerto Rico law, or on
the powers of the executive and legislative branches
of the government of Puerto Rico. The questions before the Court implicate the impact, rather than the
propriety, of the certification of the Fiscal Plan and
Budget, and their determination is not precluded by
Section 106(e).11
This reasoning is not inconsistent with this Court’s prior decision in Ambac and in related prior cases. In Ambac, this Court
held that Section 106(e) of PROMESA bars any claim that challenges the Oversight Board’s certification decision itself and any
implicit challenges of a certification decision as violating the requirements set forth in Section 201(b) of PROMESA. See Ambac,
297 F. Supp. 3d at 284. Here, Plaintiffs do not challenge the
Oversight Board’s certification decisions with respect to either
the Fiscal Plan or Budget. Moreover, Plaintiffs do not dispute
that the Fiscal Plan complies with the requirements of Section
11

32a
2. Case or Controversy Requirement – Do
Plaintiffs Seek Advisory Opinions?
Article III, Section 2 of the Constitution of the
United States limits the exercise of federal judicial
power to actual cases and controversies. U.S. Const.
art. III, § 2; Aetna Life Ins. Co. of Hartford, Conn.
v. Haworth, 300 U.S. 227, 239-41 (1937). The authority conferred on federal courts by the Declaratory Judgment Act, 28 U.S.C. § 2201, is likewise
limited to controversies that are within the constitutionally-constrained scope of federal jurisdiction.
Aetna, 300 U.S. at 240. A justiciable controversy
must be “a real and substantial controversy admitting of specific relief through a decree of a conclusive character, as distinguished from an opinion advising what the law would be upon a hypothetical
state of facts.” Aetna, 300 U.S. at 241. Federal
courts are not empowered to issue advisory opinions
where there is no such actual controversy. See id.;
Golden v. Zwickler, 394 U.S. 103, 108 (1969); Shell
Oil Co. v. Noel, 608 F.2d 208, 213 (1st Cir. 1979).
The constitutional requirement that controversies be justiciable and “admit[] of specific relief
through a decree of a conclusive character” requires
more than strong or even significant disagreement,
201(b) of PROMESA. (Opp’n at 29.) Instead, Plaintiffs seek a determination regarding the effect and enforceability of a discrete
set of provisions contained within the certified Fiscal Plan and
Budget. Even if the Court were to determine that certain of the
Challenged Provisions constitute non-binding recommendations, decertification of the Fiscal Plan and Budget would not be
required.

33a
however high the stakes, to obtain declaratory relief. The issue must be raised, and the relief sought,
in a fashion that would address a specific live controversy of sufficient immediacy and reality to warrant the issuance of a declaratory judgment. See
Golden, 394 U.S. at 108, 110. Rulings on isolated or
abstract principles that will merely be useful in formulating or litigating future choices that might or
might not be made are outside the authorized scope
of declaratory relief.
i. The Consolidation Measure
As detailed in Section I, supra, Plaintiffs’ claims
focus on five Challenged Provisions. The Consolidation Measure is one of those Challenged Provisions.
Plaintiffs argue that the proposed agency consolidation constitutes an improper attempt by the Oversight Board to “dictate how the Government will organize itself to conduct day-to-day operations.”
(Compl. ¶ 69.) However, as Defendants point out in
their response, the challenged Fiscal Plan language
is not posed in mandatory terms -- “the statement
in the Fiscal Plan that the Government should consolidate the agencies does not compel Plaintiffs to
do anything . . . There is no significant dispute here
and certainly no imposition.” (Defs.’ Mem. at 22; see
also Reply at 14.) At oral argument, counsel for
Plaintiffs conceded this point, agreeing that the
budget could provide funding for less than the full
current complement of agencies, forcing the Government to make choices in order to stay within the
budget allocation, without violating the law.

34a
Accordingly, there is no case or controversy as to
whether the Fiscal Plan improperly mandates
agency consolidations and Paragraph 80 of Count
One of the Complaint, which seeks a declaration
that “the provisions seeking to impose Government
agency consolidations under Board Fiscal Plan section 12 . . . are non-binding recommendations” is
dismissed pursuant to Federal Rule of Civil Procedure 12(b)(1), for lack of a justiciable case or controversy.
ii. The Employee Benefits Reduction Measure
Paragraph 82 of Count II demands a declaration
that “the provision requiring the elimination of certain mandatory benefits under Board Fiscal Plan
section 12.4 – which ‘places controls on expenditures for personnel’ and ‘reduc[es] benefit costs’ under PROMESA section 205(a)(1) – is a non-binding
recommendation that the Oversight Board cannot
unilaterally alter through the Board Fiscal Plan
and force on the Government.” Section 12.4 of the
Fiscal Plan, titled “Compensation-related initiatives,” sets forth three initiatives related to employee benefits that the motion briefing and argument indicate are challenged by Plaintiffs: (i) the institution of a payroll freeze, (ii) the standardization
of healthcare provided to government employees,
and (iii) the reduction of certain non-salary compensation paid to employees and other personnel policies. (See Fiscal Plan at 69-70.) Specifically, Section
12.4 mandates that the “measure to freeze all payroll expenses” included in the March 2017 Commonwealth Fiscal Plan “must be continued through

35a
the duration of the New Fiscal Plan.” Id. (emphasis
in original). The Fiscal Plan also requires that the
Government continue to enforce certain policies related to non-salary compensation paid to employees,
including “asserting a hiring freeze,” “prohibiting
any future liquidation of sick and vacation days,”
and “eliminating the Christmas bonus for all public
employees.” (Id.) The healthcare provision calls for
adjustment of the amount spent by the Commonwealth for healthcare for each public employee to
$100 per month. (Id.)
Plaintiffs argue that Section 12.4 of the Fiscal
Plan “places controls on expenditures” and “reduc[es] benefit costs” within the meaning of
PROMESA Section 205(a)(1), and that this Section
should therefore be considered a non-binding policy
recommendation because it is among the types of
measures enumerated in PROMESA’s non-exhaustive description of the types of measures regarding
which the Oversight Board can submit recommendations to the Governor under Section 205. Defendants proffer, and Plaintiffs do not contest, that the
measures other than the hiring freeze and the elimination of the Christmas bonus are already provided
for under Commonwealth law. Defendants argue
that the hiring freeze mandated by Section 12.4 of
the Fiscal Plan is a means to “enable the achievement of fiscal targets” pursuant to Section
201(b)(1)(G) of PROMESA, and that the elimination
of the Christmas bonus for all public employees
serves to advance the aims of the Fiscal Plan pursuant to PROMESA Sections 201(b)(1)(D), (F), and
(G). (Defs.’ Mem. at 20; Reply at 13.) With respect

36a
to the elimination of Christmas bonuses, Defendants also assert, and Plaintiffs do not deny, that the
budget does not prohibit payment of the bonus. Rather, the payroll amounts provided are ones that are
insufficient to cover current compensation of the full
current complement of employees plus Christmas
bonuses and, as Plaintiffs’ counsel put it at oral argument, “It’s the Governor who has to make some
difficult choices, because he’s the one who has to answer to the people. The Oversight Board is just,
here’s how much money you get. If people have to be
let go, if Christmas bonuses don’t get paid because
of that, that’s on us. That’s on the chief executive
officer of Puerto Rico to make a determination how
to implement that budget guideline.” (Tr. at 127:28.)
Because the parties agree that the current
budget does not eliminate Christmas bonuses or impose a hiring freeze, there is no ripe case or controversy as to the Board’s ability to make such
measures mandatory. Nor does there appear to be
any justiciable controversy as to the other enumerated salary and benefit measures, which appear to
be consistent with current Commonwealth law. Accordingly, the Court lacks subject matter jurisdiction of the issues raised in Paragraph 82 of Count I
and the similar claim asserted in Paragraph 87 of
Count II of the Complaint and Defendants’ Motion
will be granted pursuant to Federal Rule of Civil
Procedure 12(b)(1) insofar as it is directed to those
paragraphs.

37a
iii. The Remaining Challenged Provisions
Plaintiffs’ claims as to the other three Challenged Provisions (the “Remaining Challenged Provisions”) present justiciable issues that are capable
of conclusively and immediately resolving the disputes as to the extent to which the Government
must act in accordance with the certified Fiscal Plan
and Budget. The question of whether the Oversight
Board has the power to impose those Remaining
Challenged Provisions as mandatory presents a ripe
controversy that must be resolved to clarify for operational purposes the scope and limitations of the
Oversight Board’s power and its relationship to the
role and powers of the elected Government of Puerto
Rico, so that the parties can proceed with proper implementation of the budget for the current fiscal
year and work effectively with each other to accomplish the restorative purposes of PROMESA. This is
an issue of practical immediacy for the parties and
for the people of Puerto Rico. Certain of Plaintiffs’
requests for legal determinations are, however, of a
speculative and abstract nature and are thus, as explained below, of insufficient immediacy to rise to
the constitutional level of justiciability.
The Court now turns to Plaintiffs’ specific claims
and requests for relief as set forth in the Complaint,
examining whether they are ripe for determination
or seek advisory opinions, and, for those that are
ripe, whether they state claims upon which relief
may be granted.

38a
B. The Remaining Challenged Provisions and Requests for Relief
To survive a motion to dismiss for failure to state
a claim upon which relief can be granted under Rule
12(b)(6), a complaint must plead “enough facts to
state a claim to relief that is plausible on its face.”
Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 570
(2007). The court accepts as true the non-conclusory
factual allegations in the complaint and makes all
reasonable inferences in the plaintiff’s favor. Miss.
Pub. Emps.’ Ret. Sys. v. Boston Scientific Corp., 523
F.3d 75, 85 (1st Cir. 2008). The court may consider
“documents the authenticity of which are not disputed by the parties . . . documents central to plaintiffs’ claim, [and] documents sufficiently referred to
in the complaint.” Id. at 86 (citations omitted). The
complaint must allege enough factual content to
nudge a claim “across the line from conceivable to
plausible.” Ashcroft v. Iqbal, 556 U.S. 662, 680
(2009) (citing Twombly, 550 U.S. at 570).
As detailed in Section I, supra, Plaintiffs’ claims
focus on certain Challenged Provisions and foundational questions of whether the Oversight Board
can, through fiscal plans and budgets, mandate actions implementing policies that have specifically
been rejected by the Governor, and whether the
Oversight Board’s budget can modify or override
pre-PROMESA Commonwealth law. Prior to examining the Remaining Challenged Provisions, an
overview of the relevant statutory framework is in
order.

39a
1. Statutory Framework
At the core of this dispute are questions of statutory interpretation regarding the interplay of Sections 205 and 201(b)(1)(K) of PROMESA, the effect
of certification of an Oversight Board-developed
budget under Section 202 of PROMESA, the Oversight Board’s powers to sanction non-compliance
with such a certified budget, and the scope of
PROMESA’s preemption of pre-existing Commonwealth law.
Section 205(a) of PROMESA authorizes the
Oversight Board to “submit recommendations” to
the Governor or the Legislature of Puerto Rico at
any time “on actions the territorial government may
take to ensure compliance with the Fiscal Plan, or
to otherwise promote the financial stability, economic growth, management responsibility, and service delivery efficiency of” the Government. 48
U.S.C.A. § 2145(a) (West 2017). Section 205(a) provides a non-exhaustive list of matters that implicate
significant policy choices about the direction and operation of the government of Puerto Rico. Specifically, such matters include managing territorial financial affairs, placing controls on personnel expenditures and reducing benefit costs, reforming
procurement practices, controlling the structural
relationships among entities within the territorial
government, establishing alternative means of
meeting pension obligations, and modifying the
types of services rendered directly by the territorial
government or through alternative service delivery
mechanisms. See id. Section 205(b) requires the rel-

40a
evant government entity to respond to the Oversight Board within 90 days with a statement as to
whether the Government will adopt the recommendations. Id. § 2145(b). If the recommendations are
to be adopted, the statement must include a written
plan and timetable for implementation of the recommendations. Id. If the Government declines to
adopt the recommendation, the Governor or the
Legislature must include in the statement “explanations for the rejection of the recommendations,”
and that statement must be submitted to the President and Congress of the United States as well as to
the Oversight Board. Id. Section 205 does not address further the fate of rejected recommendations.
Section 201 of PROMESA governs the development, approval, and certification of territorial and
instrumentality fiscal plans covering periods of five
or more fiscal years. In relevant part, it first contemplates a process in which the Governor formulates and proposes a plan to the Oversight Board,
the Oversight Board comments and recommends revisions, and the Governor proposes revisions (multiple times, if necessary). If the Oversight Board ultimately determines, in its sole discretion, that the
Governor’s proposed plan meets the fiscal plan specifications identified in Section 201(b) of the statute,
the Oversight Board certifies the plan and delivers
a compliance certification to the Governor and the
Legislature. See 48 U.S.C.A. § 2141(e)(1) (West
2017). In the event the Oversight Board determines
“in its sole discretion” that the Governor’s proposed
plan is not satisfactory, the Oversight Board must
develop and submit to the Governor and Legislature

41a
its own fiscal plan that satisfies the statutory specifications. In such event, the Oversight Board’s plan
is deemed approved by the Governor, and the Oversight Board issues a compliance certification for its
plan to the Governor and the Legislature. Id. §§
2141(c)(3), (d)(2).12 Section 201(b) identifies fourteen specific objectives and requirements that a fiscal plan must meet. As relevant here, Section
201(b)(1)(K) expressly provides that a fiscal plan
shall “adopt appropriate recommendations submitted by the Oversight Board under [Section 205(a)].”
Id. § 2141(b)(1)(K) (West 2017). Section 201(c)(3)
provides the Oversight Board with “sole discretion”
to determine whether a proposed fiscal plan satisfies the requirements of Section 201(b). Id. §
2141(c).
The parties generally agree that Section 205 allows the Oversight Board to make policy “recommendations” to the Government “at any time” and
that such recommendations may be proposed as
standalone policy considerations or as part of a certified fiscal plan. (Compl. ¶¶ 5, 29; Defs.’ Mem. at
11-12.) Plaintiffs argue, however, that such provisions can never be more than “‘recommendations’
under PROMESA section 205, which the Government is free to reject,” even when they are included
in a fiscal plan. (Compl. ¶ 5; id. ¶¶ 38-43.) Defendants argue that Section 201(b)(1)(K) empowers the
Oversight Board to “adopt” in a certified fiscal plan,
12 A plan developed jointly by the Governor and the Oversight
Board for a fiscal year may also be certified. See 48 U.S.C.A. §
2141(f) (West 2018).

42a
and thus make binding, any recommendation that
the Oversight Board deems appropriate. (Defs.’
Mem. at 11-12.)13 Defendants rely principally on
PROMESA Section 201(b)(1)(K) and point also to
Section 201(e)(2), which expressly provides that a
fiscal plan certified by the Oversight Board is
“deemed approved by the Governor.” (Id. at 12.)
Section 202 of PROMESA governs the development of budgets, which must cover at least one fiscal year. Following certification of a fiscal plan, Section 202(c)(1) places the initial responsibility to develop proposed budgets that are consistent with the
applicable fiscal plan in the hands of the Governor
and the Legislature. See 48 U.S.C. §§ 2142(c)(1),

Defendants acknowledge that the Oversight Board’s power to
make recommended measures binding through fiscal plan adoption is not unlimited. Recognizing that certification results in
deemed approval by the Governor but not the Legislature, Defendants do not claim the ability to use a fiscal plan to impose
measures that would have to be implemented through new legislation. (Defs.’ Mem. at 11-12.)
13

Alternatively, Defendants argue that the Challenged Provisions
are not “recommendations” within the meaning of Section 205 of
PROMESA, such that the process of soliciting the views of the
Governor or the Legislature was unnecessary and that the disputed measures could have been mandated unilaterally under
the authority of more general provisions of Section 201(b). (See
generally, Defs.’ Mem. § II.C.) Because all of the Challenged Provisions are measures comprehended by the categories enumerated under Section 205 and were aired with the Governor, who
provided written objections, prior to their incorporation into the
Fiscal Plan, the Court need not reach the Oversight Board’s alternative proposition to resolve this motion practice.

43a
(d)(1) (West 2017). PROMESA provides the Oversight Board with authority to review any such proposed budget to determine whether it is compliant
with the applicable fiscal plan and, if so, to certify
it. See id. § 2142(e)(1). As with the process for development of a fiscal plan, the Oversight Board can
notify the Governor and Legislature of its views as
to noncompliance and request corrective measures,
and the Governor and Legislature are afforded multiple opportunities to submit revised proposed budgets. Id. §§ 2141(c), (d). Absent submission of a compliant proposed budget, the Oversight Board is required to develop and submit a compliant budget of
its own no later than the day before the beginning
of the fiscal year to which the budget is being developed. See id. §§ 2142(c)(2), (d)(2). PROMESA expressly provides that a budget developed and certified by the Oversight Board as compliant with the
fiscal plan is deemed approved by the Governor and
the Legislature and goes into “full force and effect”
beginning on the first day of the applicable fiscal
year. See id. § 2142(e)(3). Section 4 of PROMESA
provides that the Act’s provisions “shall prevail over
any general or specific provisions of territory law . .
. or regulation that is inconsistent with [the Act].”
Id. § 2103. Section 108(a)(2) of PROMESA prohibits
the Governor and Legislature from exercising any
supervision or control over the Oversight Board or
its activities, and from enacting, implementing or
enforcing any “statute, resolution, policy, or rule
that would impair or defeat the purposes of
[PROMESA], as determined by the Oversight
Board.” Id. § 2128(a).

44a
Courts must construe statutes as a whole, in
light of all of their provisions, and giving effect to
each part. See, e.g., United Savs. Ass’n of Tex. v.
Timbers of Inwood Forest Assocs., Ltd., 484 U.S.
365, 371 (1988) (noting that “[s]tatutory construction . . . is a holistic endeavor”); Kelly v. Robinson,
479 U.S. 36, 43 (1986) (in interpreting a statute, a
court “must not be guided by a single sentence or
member of a sentence, but look to the provisions of
the whole law, and to its object and policy” (internal
quotation marks omitted)).
The power bestowed on the Oversight Board by
Section 201(b)(1)(K) of PROMESA allows the Oversight Board to make binding policy choices for the
Commonwealth, notwithstanding the Governor’s rejection of Section 205 recommendations. This power
is consistent with PROMESA’s framework, particularly in light of (i) the mandate that the Oversight
Board “provide a method for [Puerto Rico] to achieve
fiscal responsibility and access to the capital markets” (48 U.S.C.A. §2121(a) (West 2017)), (ii) the
Oversight Board’s “sole discretion” to certify fiscal
plans and put budgets of its own devising into effect
(id. §§ 2141, 2142), (iii) PROMESA’s preemption of
laws inconsistent with its provisions (id. § 2103),
and (iv) PROMESA’s prohibition of gubernatorial
oversight and of implementation of any policy that
would “impair or defeat the purposes of
[PROMESA] as determined by the Oversight Board”
(id. § 2128(a)(2)). “[A]ppropriate,” as used in Section
201(b)(1)(K), means appropriate in the judgment of
the Oversight Board, which has sole discretion as to

45a
fiscal plan and budget certification and the determination of whether and to what extent policies would
impair or defeat the purposes of PROMESA, as informed by the Governor’s articulated reasons for opposing the recommendation. Section 201(b)(1)(K)
does not distinguish between recommendations that
are ultimately approved by the Government and
those that are rejected. Instead, Section
201(b)(1)(K) speaks only of recommendations that
were “submitted” by the Oversight Board, regardless of whether or not they were rejected by the Government.
Consistent
with
this
structure,
PROMESA also provides that a budget or fiscal plan
that is certified by the Oversight Board is “deemed
approved by” the Governor. Id. § 2141(e)(2). Something that is “deemed approved” by the Governor
need not actually have been approved by the Governor.
That this powerful authority to make certain important policy determinations ultimately rests with
the Oversight Board does not, however, render the
elected Governor irrelevant or toothless. PROMESA
requires the Oversight Board to look first to the
elected government for fiscal plan and budgetary direction, and requires extensive and specific communications, with opportunities for revision of proposals, in the event the Oversight Board considers
a proposed plan or budget violative of PROMESA or
of the fiscal plan, as the case may be. The parties
acknowledge that there were extensive discussions
and negotiations prior to the Oversight Board’s certification of its Fiscal Plan and Budget, and it is a
testament to their hard work and good faith that

46a
only five areas of disagreement are currently in contention. Indeed, as Plaintiffs’ counsel noted at the
Hearing, the Fiscal Plan spans “113” pages, and a
“tremendous amount of working together” and “of
listening” has narrowed the current dispute to the
five issues. (Tr. at 128:25-129:4.)
Any fiscal plan provision adopting a recommendation over the Governor’s objection can be certified
only after the Governor has had a formal opportunity to make his objections public and, indeed, to
communicate any such objections to Congress and
to the President. Those bodies could take negative
legislative action or exercise powers affecting the
composition of the Oversight Board were they to believe that the Governor had the better of the argument. Furthermore, the Oversight Board, in adopting a policy over such objections, faces the challenge
of managing implementation of the policy in a way
that garners the genuine cooperation of Puerto
Rico’s elected government and the citizens of the island who voted for them, as well as the confidence
of stakeholders and potential new investors whose
interest in doing business with the Commonwealth
will be crucial to the Oversight Board’s ability to fulfill its charge of providing a method to achieve access to the capital markets.
It is thus clear that the Oversight Board’s ability
to impose a rejected policy is not one to be exercised
lightly. Nor is it, as a practical matter, one that is
unconstrained. Although a budget approved and
adopted by the Oversight Board as compliant with
a certified fiscal plan becomes law insofar as it is in
full force and effect without further action on the

47a
part of the Governor or the Legislature, and inconsistent Commonwealth laws are preempted, the
Oversight Board has not been given power to affirmatively legislate. Thus, with respect to policy
measures that would require the adoption of new
legislation or the repeal or modification of existing
Commonwealth law, the Oversight Board has only
budgetary tools and negotiations to use to elicit any
necessary buy-in from the elected officials and legislators. Elected officials and legislators, on the
other hand, have the ability to obstruct implementation altogether, or complicate it in such a way as
to cripple Puerto Rico’s ability to use it to promote
the needed return to fiscal responsibility and access
to capital markets. PROMESA is an awkward
power-sharing arrangement and, as the Court noted
in its decision rejecting the Oversight Board’s attempt to appoint a Chief Transformation Officer for
PREPA, is “fraught with potential for mutual sabotage.” In re Fin. Oversight & Mgmt. Bd. for P.R., 583
B.R. 626, 637 (D.P.R. 2017). “These negative possibilities should,” as the Court stated in that opinion,
“motivate the parties to work together, quickly, for
positive change” within the statutory structure in
which neither of them holds all of the cards. Id.
Although this governance structure infringes on
the scope of the authority of the elected Government, it was nonetheless contemplated and written
into law by Congress. As the parties have noted in
their submissions, Congress considered imposing an
even more powerful board, similar to the one that
was put in place for a time in the District of Colum-

48a
bia, when developing the legislation that was ultimately enacted as PROMESA. While Congress revised the precursor of Section 205 to remove a provision that unambiguously allowed the Oversight
Board to override the Government’s judgment, it
simultaneously added Section 201(b)(1)(K) which,
as described above, has a similar practical effect.
Commentary in the legislative history of PROMESA
is generally consistent with the view that certified
fiscal plans would be able to adopt recommendations even absent approval by the Government. See
H.R. Rep. No. 114-602 (2016), reprinted in 2016 WL
3124840, at *46 (“The Oversight Board may incorporate any recommendations–even those not
adopted by the Legislature or Governor–into the development of Fiscal Plans.”); 162 Cong. Rec. S469002, S4695 (June 29, 2016) (statement of Sen.
Menendez), reprinted in 2016 WL 3544524 (“While
this section calls these comments recommendations,
another section allows the board to ‘adopt appropriate recommendations’ submitted by the Oversight
Board under section 205. So, in essence, they can
adopt the very essence of what they are saying is a
recommendation.”); Puerto Rico Oversight, Management, and Economic Stability Act (PROMESA):
Markup Memorandum H.R. 5278 From Majority
Committee Staff of H. Comm. on Natural Resources,
114th Cong. 3 (2016) (“The Board’s broad powers include: the imposition of legislative or executive recommendations . . . .”).14 Plaintiffs’ argument that
Although Puerto Rico’s non-voting member of the United
States House of Representatives submitted a statement asserting that the final versions of Section 201 and Section 205 had
14

49a
Section 303 of PROMESA, which reserves governance powers of a territory, precludes mandatory
adoption of rejected recommendations thus fails, because Section 303’s reservation is explicitly made
“[s]ubject to the limitations set forth in [Titles] I and
II” of PROMESA (48 U.S.C.A. § 2163 (West 2017)),
and Section 202, which is part of Title II, permits
the Oversight Board to adopt recommendations
without any requirement of gubernatorial approval
(id. § 2142).
The Court turns now to the viability of Plaintiffs’
attack on the Remaining Challenged Provisions.
2. Remaining Challenged Provisions
i. Budgetary Reprogramming
Section 11.2.1 of the Fiscal Plan is titled “Enforcement of the budget” and provides, in relevant
part, that any power of AAFAF, the OMB, or the Department of the Treasury, “including the authorities
granted under Act 230-1974, as amended, known as
the ‘Puerto Rico Government Accounting Act’ (‘Act
230’), to authorize the reprogramming or extension
of appropriations of prior fiscal years is hereby suspended.” (Fiscal Plan § 11.2.1.) Section 7 of the General Fund Resolution and Section 7 of the Special

removed a provision “empowering the oversight board to impose
its recommendations over the objection of the Puerto Rico government,” H.R. Rep. No. 114-602 (2016), reprinted in 2016 WL
3124840, at *114, his comment did not acknowledge, much less
address directly, the simultaneous addition of Section
205(1)(1)(K) to the bill.

50a
Resolution incorporate this same language. Plaintiffs also challenge Section 10 of the General Fund
Resolution, which grants OMB the ability to withhold from any allocations to the executive agencies
the amounts necessary to pay for the pay-go contribution, unemployment insurance, or taxes withheld
from their employees, “when OMB determines that
such a withholding is necessary to ensure compliance with these obligations by the agencies concerned,” and provides that “[a]ny such amounts
withheld by OMB shall solely be reprogrammed to
pay the corresponding outstanding obligations related to pay-go contributions, unemployment insurance, or taxes withheld from employees as allowed
in” Section 10. (See General Fund Resolution §§ 7
and 10; Special Resolution § 7.) Plaintiffs argue that
these Challenged Provisions (i.e., Fiscal Plan Section 11.2.1, General Fund Resolution Sections 7 and
10, and Special Resolution Section 7) are merely optional recommendations, because they “place controls on expenditures” and alter “the management
of the [Commonwealth’s] financial affairs” within
the meaning of Section 205(a)(1) of PROMESA.
(Opp’n at 22.) Plaintiffs also contend that these provisions of the Fiscal Plan and the Challenged
Budget Resolutions are beyond the powers granted
to the Oversight Board by PROMESA because they
are inconsistent with the PROMESA provision that
specifically addresses reprogramming. That provision, set forth in PROMESA Section 204(c), reads as
follows:
If the Governor submits a request to the Legislature for the reprogramming of any amounts

51a
provided in a certified Budget, the Governor
shall submit such request to the Oversight
Board, which shall analyze whether the proposed reprogramming is significantly inconsistent with the Budget, and submit its analysis to the Legislature as soon as practicable after receiving the request. . . . The Legislature
shall not adopt a reprogramming, and no officer or employee of the territorial government
may carry out any reprogramming, until the
Oversight Board has provided the Legislature
with an analysis that certifies such reprogramming will not be inconsistent with the Fiscal
Plan and Budget.
48 U.S.C.A. 2144(c) (West 2017) (emphasis added).
Because the reprogramming provision of the statute
addresses only amounts that are provided for within
a particular budget, Plaintiffs argue that PROMESA
does not prohibit the Governor and territorial officials
from reprogramming unused appropriations from
prior fiscal years. (See Compl. ¶¶ 79, 88.) Defendants,
who define reprogramming as “moving funds from one
budget appropriation to another, or using funds appropriated in a prior year in a subsequent year,” argue that power to restrict reprogramming of appropriations from prior years is inherent in the Oversight
Board’s power and obligation to certify that a fiscal
plan satisfies Sections 201(b)(1)(A), (D), (F), and (G)
of PROMESA, and that its authority to include such
restriction in a budget follows from Section 202(c)(1)
of PROMESA. (Defs.’ Mem. at 17-18; see also Docket
Entry No. 28, Defendants’ Reply (the “Reply”), at 11.)

52a
In Paragraph 79 of Count I of the Complaint,
Plaintiffs seek a declaration that “the suspension of
Act 230 and reprogramming authorization for prior
fiscal years under Board Fiscal Plan section 11.2.1 .
. . is a non-binding recommendation because (i) it is
inconsistent with the reprogramming standard under PROMESA section 204(c), which does not prohibit reprogramming requests for prior fiscal years,
(ii) inappropriately attempts to modify AAFAF’s
powers under Law 2-2017 and Act 230, among others, without following PROMESA’s provisions for
reviewing legislation, and (iii) is an inappropriate
use of the Board’s budget power to shift responsibilities of Government officials.” Paragraph 88 of
Count II seeks a substantially identical declaration
regarding the corresponding budgetary resolution
provisions. These aspects of the Complaint fail as a
matter of law to state claims upon which relief may
be granted.
PROMESA grants the Oversight Board the exclusive authority to certify a fiscal plan, and to certify a budget for periods covering one or more fiscal
years. See 48 U.S.C.A. §§ 2141(c), 2142(e) (West
2017). Among the mandatory purposes of the certified fiscal plan with which the budget must comply
are “to ensure the funding of essential public services,” “provide for the elimination of structural deficits,” and “improve fiscal governance, accountability and internal controls.” Id. § 2141(b). A budget
must cover a specific fiscal year or years. It beggars
reason, and would run contrary to the reliability
and transparency mandates of PROMESA, to suppose that a budget for a fiscal year could be designed

53a
to do anything less than comprehend all projected
revenues and financial resources, and all expenditures, for the fiscal year. Since a certified budget is
in full effect as of the first day of the covered period,
means and sources of government spending are necessarily rendered unavailable if they are not provided for within the budget. A prior year authorization for spending that is not covered by the budget
is inconsistent with PROMESA’s declaration that
the Oversight Board-certified budget for the fiscal
year is in full force and effect, and is therefore
preempted by that statutory provision by force of
Section 4 of PROMESA. Accordingly, the Fiscal
Plan language regarding suspension of authority to
approve off-budget reprogramming may well be superfluous, and in any event merely has the same effect as PROMESA’s explicit provisions. The exclusive scope of a certified budget also makes pellucid
the reason that Section 204(c)’s reprogramming provision speaks only to the then-current fiscal year –
the budget does not make any other resources available for reprogramming.
Accordingly, Paragraph 79 of Count I and Paragraph 88 of Count II the Complaint fail to state
claims upon which relief may be granted and are for
that reason dismissed pursuant to Federal Rule of
Civil Procedure 12(b)(6).
ii. Automatic Budget Reductions
Section 12.3 of the Fiscal Plan provides the following:

54a
If, after the third fiscal quarter of any fiscal
year there remains unrealized agency efficiency savings for any grouping relative to the
projected agency efficiency savings in the New
Fiscal Plan for the applicable fiscal year, the
Oversight Board will automatically reduce the
budget for the corresponding grouping for the
following fiscal year in the amount equal to the
unrealized agency efficiency savings. In particular, if the Oversight Board determines that
there is material underperformance in agency
efficiency savings relative to the projections set
forth in the New Fiscal Plan, intentional workforce reductions will be necessary to meet the
agency efficiency savings targets set forth
herein.
(Fiscal Plan at 68-69.) In Paragraph 81 of Count I of
the Complaint, Plaintiffs assert that they are entitled
to a declaration that “the provision requiring automatic budget reductions for future fiscal years (including intentional workforce reductions) under
Board Fiscal Plan section 12.3 – which ‘places controls
on expenditures’ under PROMESA section 205(a)(1) –
is a non-binding recommendation because (i) the
Board cannot mandate workforce reduction through
the budget process, and (ii) nothing in PROMESA allows the Oversight Board to dictate personnel decisions for the Commonwealth.” Defendants contend
that the imposition of automatic budget reductions is
within the Oversight Board’s power to mandate “improve[ments in] fiscal governance, accountability, and
internal controls” pursuant to a fiscal plan under Section 201(b)(1)(F) of PROMESA and its authority to

55a
impose certain expenditure reductions pursuant to
PROMESA Section 203(d)(1) in the event of noncompliance with a certified budget. (Defs.’ Mem. at 22; Reply at 14.)
While it is true that PROMESA Section
201(b)(1)(F) provides that a certified fiscal plan
shall “improve fiscal governance, accountability,
and internal controls” (11 U.S.C.A. § 2141(b)(1)(F)
(West 2017)) and recommendations that the Oversight Board could adopt in a Fiscal Plan include
“placing controls on expenditures for personnel” (id.
§ 2145(a)(1)), Section 201(b) does not explicitly authorize building triggers into one budget that automatically restrict appropriations in a subsequent
budget. Section 203, on the other hand, explicitly
provides a protocol for assessing compliance with a
budget on a quarterly basis, including assessment
of third quarter performance, that requires the
Oversight Board to determine whether there is an
inconsistency between actual and budget figures,
advise the territorial government to correct any
such inconsistency and certify any uncorrected inconsistency to the President, certain Congressional
Committees, the Governor, and the Legislature, and
authorizes the Oversight Board to make appropriate reductions in non-debt expenditures to true up
actual revenues and expenditures with approved
budgetary provisions for the relevant period. For
subsequent fiscal years that are not covered by the
certified budget, Section 202 of PROMESA requires
the interactive process of soliciting proposals and
revisions from the Government before the Oversight
Board can impose unilateral measures. Nothing in

56a
the statute authorizes automatic budgetary or personnel restrictions across separate budgets.
Paragraph 81 of Count I thus states a claim upon
which relief may be granted, and Defendants’ Motion to dismiss the Complaint is denied insofar as it
is directed to Paragraph 81 thereof.
iii. Corrective Measures
Section 15 of the General Fund Resolution and
Section 14 of the Special Resolution provide that,
“[i]f during the fiscal year the government fails to
comply with the liquidity and budgetary savings
measures required by the [fiscal plan] certified by
the Oversight Board, the Government shall take all
necessary corrective action, including the measures
provided in PROMESA sections 203 and 204.” (General Fund Resolution § 15; Special Resolution § 14.)
Additionally, Section 16 of the General Fund Resolution and Section 15 of the Special Resolution provide that:
The Secretary of Treasury, the treasurer and
Executive Directors of each agency or Public
Corporation covered by the New Fiscal Plan for
Puerto Rico certified by the Oversight Board,
and the Director of the OMB (or their respective successors) shall be responsible for not
spending or encumbering during fiscal year
2019 any amount that exceeds the appropriations authorized for such year. This prohibition
applies to every appropriation set forth in this
Joint Resolution, including appropriations for
payroll and related costs. Any violation of this

57a
prohibition shall constitute a violation of this
Joint Resolution and Act 230.
(General Fund Resolution § 16; see also Special Resolution § 15.)
Plaintiffs argue that because the Budget, by invoking Act 230, makes spending funds in excess of
appropriations a misdemeanor and also alters Act
230 by making excess spending a strict liability
criminal offense, General Fund Resolution Section
15 and Special Resolution Section 14 affect “the territory’s laws . . . on the operations of the territorial
government” and are therefore recommendations
pursuant to PROMESA Section 205(a)(7). 48
U.S.C.A. § 2145(a)(7) (West 2017). Plaintiffs also
contend that General Fund Resolution Section 16
and Special Resolution Section 15 exceed the Oversight Board’s powers under PROMESA because
they “(i) amend existing legislation to expand criminal penalties under Act 230 and (ii) go beyond the
Board’s limited power to discipline Government officials under PROMESA section 104(l).” (Opp’n at
21.) Defendants argue that the measures at issue
serve to “improve fiscal governance, accountability,
and internal controls” in keeping with PROMESA §
201(b)(1)(F). (Defs.’ Mem. at 23.) Additionally, Defendants rely on PROMESA Sections 203 and 204
for the proposition that the Oversight Board has the
authority to require corrective measures in the
event that the Governor fails to comply with a certified budget. (Id.) In any event, Defendants argue,
the penalties set forth in Section 16 of the General

58a
Fund Resolution and Section 15 of the Special Resolution merely restate existing Commonwealth law
under Act 230. (Id. at 24.)
Paragraph 89 of Count II of the Complaint seeks
a declaration that “the provision in the Board
Budget requiring the Government to take all necessary and corrective action to comply with the Board
Fiscal Plan measures under General Fund Resolution section 15 and Special Resolution section 14 –
which ‘places controls on expenditures’ under
PROMESA section 205(a)(1) is not enforceable because such provisions are (i) an impermissible attempt to expand the Board’s limited budget enforcement powers under PROMESA section 203(d)(1),
(ii), inconsistent with the reprogramming procedure
under [PROMESA] section 204(c), and (iii) an abuse
of the Board’s budget powers as a backdoor attempt
to legislate.”
In Paragraph 90 of Count II, Plaintiffs assert
that they are “entitled to a judicial declaration . . .
that the provision expanding the Board’s punishment powers for non-compliance under General
Fund Resolution section 16 and Special Fund Resolution section 15 which would ‘effect the territory’s
laws . . . on the operation of the territorial government’ is not enforceable because (i) such provisions
seek to impose Act 230 punishments on appropriation violations, which include criminal punishments
that can only be established by the Legislature, and
(ii) the Board’s punishment powers for budget noncompliance are limited to PROMESA section 104(l),
which does not include the power to apply criminal
punishment to the actions of Government officials.”

59a
Sections 203 and 204 of PROMESA prescribe
procedures and limited remedies in the event of
noncompliance with certified budgets and fiscal
plans. Neither authorizes the Oversight Board to
write into the law of Puerto Rico a general declaration that violations of the provisions of the appropriations provisions of the budget are an independent violation of law and, while PROMESA specifies
certain consequences upon the Commonwealth’s
failure to correct an inconsistency of expenditures
versus the budget, the statute itself does not impose
affirmative obligations on the Commonwealth or
any or its officers or agents to take corrective action.
Nor does PROMESA, by virtue of its provision rendering an Oversight Board-certified budget effective, create new liability under Puerto Rico law for
violations of the budget. Defendants disclaim any
intent effectively to amend Act 230 (the criminal
provision) or claim prosecutorial authority, asserting at oral argument that the resolutions merely
state the Oversight Board’s position that a violation
of the certified budget is a crime within the meaning
of the statute. (See Reply § III.D; Tr. at 113:19-25.)
Nonetheless, these provisions of the Resolutions,
read in the light most favorable to Plaintiffs, appear
to claim powers and impose consequences in excess
of those authorized by PROMESA. Accordingly, Paragraphs 89 and 90 Count II state claims upon which
relief may be granted and Defendants’ Motion is denied to the extent it is directed to those paragraphs.

60a
3. Remaining Relief Sought
The remaining relief-related provisions of the
Complaint seek declarations of a more general nature. Paragraph 78 of Count I demands a declaration that “the rejected policy recommendations in
the Board Fiscal Plan are non-binding recommendations and that the Government is not obligated to
implement any of these policies, and that the Oversight Board may not take any actions to force compliance with such recommendations.” As explained
above, the Oversight Board is not precluded from
adopting the rejected policy recommendations in a
fiscal plan. The Complaint therefore fails to state a
claim upon which relief may be granted with respect
to the Challenged Provisions, and Defendants’ Motion is granted insofar as it is directed to the claim
asserted in Paragraph 78 of Count I.
In Paragraph 83 of Count I and Paragraph 91 of
Count II, Plaintiffs essentially seek declarations
that any fiscal plan or budgetary provision that the
Governor determines in his discretion is a policy
recommendation and rejects, now or in the future
(whether identified in the Complaint or otherwise)
is not binding on the Commonwealth and need not
be implemented by the Governor. For substantially
the reasons already explained above, this broad
proposition fails to state a claim upon which relief
may be granted, and Defendants’ Motion is granted
insofar as it is directed to these aspects of Counts I
and II.
Plaintiffs’ final declaratory judgment claim is set
forth in Paragraph 92 of Count II, which seeks a

61a
declaration “that any provisions of the Board
Budget that exceed the Board’s powers under
PROMESA § 202 are invalid.” Plaintiffs do not specify what provisions are challenged in this connection, nor do they identify the powers with which
they are concerned. Plaintiff’s Complaint is, accordingly, too abstract in this regard to frame a justiciable case or controversy or, to the extent it can be
read to satisfy the constitutional requisite for standing, it lacks sufficient grounding in specific factual
pleading to state plausibly a claim upon which relief
may be granted. The declaratory judgment claim asserted in Paragraph 92 of the Complaint is, accordingly, dismissed.
Plaintiffs’ final Count pleads an entitlement to
injunctive relief “prohibiting the Defendants from
implementing and enforcing the Oversight Board’s
policy recommendations contained in the Board Fiscal Plan and Board Budget . . . .” (Paragraph 93,
Count III.) Because Plaintiffs have stated some
claims upon which relief may be granted, the possibility of propriety of injunctive relief is not so remote that dismissal of Count III is warranted at this
juncture. Defendants’ Motion is denied insofar as it
is directed to Count III of the Complaint.
CONCLUSION
For the foregoing reasons, the Motion is granted
pursuant to Federal Rule of Civil Procedure 12(b)(6)
insofar as it seeks dismissal of the claims asserted
in Paragraphs 78, 79, and 83 of Count I, and those
asserted in Paragraphs 88 and 91 of Count II. The
Motion is granted pursuant to Federal Rule of Civil

62a
Procedure 12(b)(1) insofar as it seeks dismissal of
the claims asserted in Paragraphs 80 and 82 of
Count I and Paragraphs 87 and 92 of Count II. Defendants’ Motion is denied in all other respects. This
adversary proceeding remains referred to Magistrate Judge Dein for general pretrial management.
This Opinion and Order resolves Docket Entry
Nos. 16 and 31.
SO ORDERED.
Dated: August 27,
2018

/s/ Laura Taylor Swain
LAURA TAYLOR SWAIN
United States District
Judge

63a
APPENDIX C
STATUTES
Public Law 114-187, 130 Stat. 549 (June 30, 2016)
Section 4. Supremacy. (48 U.S.C. § 2104)
The provisions of this Act shall prevail over any general or specific provisions of territory law, State law,
or regulation that is inconsistent with this Act.
Section 201. Approval of Fiscal Plans. (48 U.S.C.
§ 2141)
(a) IN GENERAL.—As soon as practicable after all of
the members and the Chair have been appointed to
the Oversight Board in accordance with section 101(e)
in the fiscal year in which the Oversight Board is established, and in each fiscal year thereafter during
which the Oversight Board is in operation, the Oversight Board shall deliver a notice to the Governor
providing a schedule for the process of development,
submission, approval, and certification of Fiscal
Plans. The notice may also set forth a schedule for revisions to any Fiscal Plan that has already been certified, which revisions must be subject to subsequent
approval and certification by the Oversight Board.
The Oversight Board shall consult with the Governor
in establishing a schedule, but the Oversight Board
shall retain sole discretion to set or, by delivery of a
subsequent notice to the Governor, change the dates
of such schedule as it deems appropriate and reasonably feasible.
(b) REQUIREMENTS.—

64a
(1) IN GENERAL.—A Fiscal Plan developed under
this section shall, with respect to the territorial government or covered territorial instrumentality, provide a method to achieve fiscal responsibility and access to the capital markets, and—
(A) provide for estimates of revenues and expenditures in conformance with agreed accounting
standards and be based on—
(i) applicable laws; or
(ii) specific bills that require enactment in
order to reasonably achieve the projections of
the Fiscal Plan;
(B) ensure the funding of essential public services;
(C) provide adequate funding for public pension
systems;
(D) provide for the elimination of structural
deficits;
(E) for fiscal years covered by a Fiscal Plan in
which a stay under titles III or IV is not effective,
provide for a debt burden that is sustainable;
(F) improve fiscal governance, accountability,
and internal controls;
(G) enable the achievement of fiscal targets;
(H) create independent forecasts of revenue for
the period covered by the Fiscal Plan;
(I) include a debt sustainability analysis;

65a
(J) provide for capital expenditures and investments necessary to promote economic growth;
(K) adopt appropriate recommendations submitted by the Oversight Board under section
205(a);
(L) include such additional information as the
Oversight Board deems necessary;
(M) ensure that assets, funds, or resources of a
territorial instrumentality are not loaned to,
transferred to, or otherwise used for the benefit of
a covered territory or another covered territorial
instrumentality of a covered territory, unless permitted by the constitution of the territory, an approved plan of adjustment under title III, or a
Qualifying Modification approved under title VI;
and
(N) respect the relative lawful priorities or lawful liens, as may be applicable, in the constitution,
other laws, or agreements of a covered territory or
covered territorial instrumentality in effect prior
to the date of enactment of this Act.
(2) TERM.—A Fiscal Plan developed under this
section shall cover a period of fiscal years as determined by the Oversight Board in its sole discretion
but in any case a period of not less than 5 fiscal years
from the fiscal year in which it is certified by the Oversight Board.
(c) DEVELOPMENT, REVIEW, APPROVAL,
AND CERTIFICATION OF FISCAL PLANS.—

66a
(1) TIMING REQUIREMENT.—The Governor
may not submit to the Legislature a Territory Budget
under section 202 fora fiscal year unless the Oversight Board has certified the Territory Fiscal Plan for
that fiscal year in accordance with this subsection,
unless the Oversight Board in its sole discretion
waives this requirement.
(2) FISCAL PLAN DEVELOPED BY GOVERNOR.—The Governor shall submit to the Oversight
Board any proposed Fiscal Plan required by the Oversight Board by the time specified in the notice delivered under subsection (a).
(3) REVIEW BY THE OVERSIGHT BOARD.—
The Oversight Board shall review any proposed Fiscal
Plan to determine whether it satisfies the requirements set forth in subsection (b) and, if the Oversight
Board determines in its sole discretion that the proposed Fiscal Plan—
(A) satisfies such requirements, the Oversight
Board shall approve the proposed Fiscal Plan; or
(B) does not satisfy such requirements, the
Oversight Board shall provide to the Governor—
(i) a notice of violation that includes recommendations for revisions to the applicable Fiscal Plan; and
(ii) an opportunity to correct the violation in
accordance with subsection (d)(1).
(d) REVISED FISCAL PLAN.—
(1) IN GENERAL.—If the Governor receives a notice of violation under subsection (c)(3), the Governor

67a
shall submit to the Oversight Board a revised proposed Fiscal Plan in accordance with subsection (b) by
the time specified in the notice delivered under subsection (a). The Governor may submit as many revised Fiscal Plans to the Oversight Board as the
schedule established in the notice delivered under
subsection (a) permits.
(2) DEVELOPMENT BY OVERSIGHT BOARD.—
If the Governor fails to submit to the Oversight Board
a Fiscal Plan that the Oversight Board determines in
its sole discretion satisfies the requirements set forth
in subsection (b) by the time specified in the notice
delivered under subsection (a), the Oversight Board
shall develop and submit to the Governor and the Legislature a Fiscal Plan that satisfies the requirements
set forth in subsection (b).
(e) APPROVAL AND CERTIFICATION.—
(1) APPROVAL OF FISCAL PLAN DEVELOPED
BY GOVERNOR.—If the Oversight Board approves a
Fiscal Plan under subsection(c)(3), it shall deliver a
compliance certification for such Fiscal Plan to the
Governor and the Legislature.
(2) DEEMED APPROVAL OF FISCAL PLAN DEVELOPED BY OVERSIGHT BOARD.—If the Oversight Board develops a Fiscal Plan under subsection
(d)(2), such Fiscal Plan shall be deemed approved by
the Governor, and the Oversight Board shall issue a
compliance certification for such Fiscal Plan to the
Governor and the Legislature.
(f) JOINT DEVELOPMENT OF FISCAL PLAN.—
Notwithstanding any other provision of this section,

68a
if the Governor and the Oversight Board jointly develop a Fiscal Plan for the fiscal year that meets the
requirements under this section, and that the Governor and the Oversight Board certify that the fiscal
plan reflects a consensus between the Governor and
the Oversight Board, then such Fiscal Plan shall
serve as the Fiscal Plan for the territory or territorial
instrumentality for that fiscal year.
Section 202. Approval of Budgets (48 U.S.C. §
2142)
(a) REASONABLE SCHEDULE FOR DEVELOPMENT OF BUDGETS.—As soon as practicable after
all of the members and the Chair have been appointed
to the Oversight Board in the fiscal year in which the
Oversight Board is established, and in each fiscal year
thereafter during which the Oversight Board is in operation, the Oversight Board shall deliver a notice to
the Governor and the Legislature providing a schedule for developing, submitting, approving, and certifying Budgets for a period of fiscal years as determined by the Oversight Board in its sole discretion
but in any case a period of not less than one fiscal year
following the fiscal year in which the notice is delivered. The notice may also set forth a schedule for revisions to Budgets that have already been certified,
which revisions must be subject to subsequent approval and certification by the Oversight Board. The
Oversight Board shall consult with the Governor and
the Legislature in establishing a schedule, but the
Oversight Board shall retain sole discretion to set or,
by delivery of a subsequent notice to the Governor and
the Legislature, change the dates of such schedule as
it deems appropriate and reasonably feasible.

69a
(b) REVENUE FORECAST.—The Oversight
Board shall submit to the Governor and Legislature a
forecast of revenues for the period covered by the
Budgets by the time specified in the notice delivered
under subsection (a), for use by the Governor in developing the Budget under subsection (c).
(c) BUDGETS DEVELOPED BY GOVERNOR.—
(1) GOVERNOR’S PROPOSED BUDGETS.
The Governor shall submit to the Oversight Board
proposed Budgets by the time specified in the notice delivered under subsection (a). In consultation
with the Governor in accordance with the process
specified in the notice delivered under subsection
(a), the Oversight Board shall determine in its sole
discretion whether each proposed Budget is compliant with the applicable Fiscal Plan and—
(A) if a proposed Budget is a compliant
budget, the Oversight Board shall—
(i) approve the Budget; and
(ii) if the Budget is a Territory Budget,
submit the Territory Budget to the Legislature; or
(B) if the Oversight Board determines that
the Budget is not a compliant budget, the Oversight Board shall provide to the Governor—
(i) a notice of violation that includes a description of any necessary corrective action;
and
(ii) an opportunity to correct the violation in accordance with paragraph (2).

70a
(2) GOVERNOR’S REVISIONS.—The Governor may correct any violations identified by the
Oversight Board and submit a revised proposed
Budget to the Oversight Board in accordance with
paragraph (1). The Governor may submit as many
revised Budgets to the Oversight Board as the
schedule established in the notice delivered under
subsection (a) permits. If the Governor fails to develop a Budget that the Oversight Board determines is a compliant budget by the time specified
in the notice delivered under subsection (a), the
Oversight Board shall develop and submit to the
Governor, in the case of an Instrumentality
Budget, and to the Governor and the Legislature,
in the case of a Territory Budget, a revised compliant budget.
(d) BUDGET APPROVAL BY LEGISLATURE.—
(1) LEGISLATURE ADOPTED BUDGET.—
The Legislature shall submit to the Oversight
Board the Territory Budget adopted by the Legislature by the time specified in the notice delivered
under subsection (a). The Oversight Board shall
determine whether the adopted Territory Budget
is a compliant budget and—
(A) if the adopted Territory Budget is a compliant budget, the Oversight Board shall issue
a compliance certification for such compliant
budget pursuant to subsection (e); and
(B) if the adopted Territory Budget is not a
compliant budget, the Oversight Board shall
provide to the Legislature—

71a
(i) a notice of violation that includes a description of any necessary corrective action;
and
(ii) an opportunity to correct the violation in accordance with paragraph (2).
(2) LEGISLATURE’S REVISIONS.—The Legislature may correct any violations identified by
the Oversight Board and submit a revised Territory Budget to the Oversight Board in accordance
with the process established under paragraph (1)
and by the time specified in the notice delivered
under subsection (a). The Legislature may submit
as many revised adopted Territory Budgets to the
Oversight Board as the schedule established in the
notice delivered under subsection (a) permits. If
the Legislature fails to adopt a Territory Budget
that the Oversight Board determines is a compliant budget by the time specified in the notice delivered under subsection (a), the Oversight Board
shall develop a revised Territory Budget that is a
compliant budget and submit it to the Governor
and the Legislature.
(e) CERTIFICATION OF BUDGETS.—
(1) CERTIFICATION OF DEVELOPED AND
APPROVED TERRITORY BUDGETS.—If the
Governor and the Legislature develop and approve
a Territory Budget that is a compliant budget by
the day before the first day of the fiscal year for
which the Territory Budget is being developed and
in accordance with the process established under
subsections (c) and (d), the Oversight Board shall

72a
issue a compliance certification to the Governor
and the Legislature for such Territory Budget.
(2) CERTIFICATION OF DEVELOPED INSTRUMENTALITY BUDGETS.—If the Governor
develops an Instrumentality Budget that is a compliant budget by the day before the first day of the
fiscal year for which the Instrumentality Budget is
being developed and in accordance with the process established under subsection (c), the Oversight Board shall issue a compliance certification
to the Governor for such Instrumentality Budget.
(3) DEEMED CERTIFICATION OF TERRITORY BUDGETS.—If the Governor and the Legislature fail to develop and approve a Territory
Budget that is a compliant budget by the day before the first day of the fiscal year for which the
Territory Budget is being developed, the Oversight
Board shall submit a Budget to the Governor and
the Legislature (including any revision to the Territory Budget made by the Oversight Board pursuant to subsection (d)(2)) and such Budget shall
be—
(A) deemed to be approved by the Governor
and the Legislature;
(B) the subject of a compliance certification
issued by the Oversight Board to the Governor
and the Legislature; and
(C) in full force and effect beginning on the
first day of the applicable fiscal year.
(4) DEEMED CERTIFICATION OF INSTRUMENTALITY BUDGETS.—If the Governor fails

73a
to develop an Instrumentality Budget that is a
compliant budget by the day before the first day of
the fiscal year for which the Instrumentality
Budget is being developed, the Oversight Board
shall submit an Instrumentality Budget to the
Governor (including any revision to the Instrumentality Budget made by the Oversight Board
pursuant to subsection (c)(2)) and such Budget
shall be—
(A) deemed to be approved by the Governor;
(B) the subject of a compliance certification
issued by the Oversight Board to the Governor;
and
(C) in full force and effect beginning on the
first day of the applicable fiscal year.
(f) JOINT DEVELOPMENT OF BUDGETS.—
Notwithstanding any other provision of this section,
if, in the case of a Territory Budget, the Governor, the
Legislature, and the Oversight Board, or in the case
of an Instrumentality Budget, the Governor and the
Oversight Board, jointly develop such Budget for the
fiscal year that meets the requirements under this
section, and that the relevant parties certify that such
budget reflects a consensus among them, then such
Budget shall serve as the Budget for the territory or
territorial instrumentality for that fiscal year.
Section 204. Review of Activities to Ensure
Compliance with Fiscal Plan. (48 U.S.C. § 2144)
(a) SUBMISSION OF LEGISLATIVE ACTS TO
OVERSIGHT BOARD.—

74a
(1) SUBMISSION OF ACTS.—Except to the
extent that the Oversight Board may provide otherwise in its bylaws, rules, and procedures, not
later than 7 business days after a territorial government duly enacts any law during any fiscal
year in which the Oversight Board is in operation,
the Governor shall submit the law to the Oversight
Board.
(2) COST ESTIMATE; CERTIFICATION OF
COMPLIANCE OR NONCOMPLIANCE.—The
Governor shall include with each law submitted to
the Oversight Board under paragraph (1) the following:
(A) A formal estimate prepared by an appropriate entity of the territorial government with
expertise in budgets and financial management of the impact, if any, that the law will
have on expenditures and revenues.
(B) If the appropriate entity described in
subparagraph (A) finds that the law is not significantly inconsistent with the Fiscal Plan for
the fiscal year, it shall issue a certification of
such finding.
(C) If the appropriate entity described in
subparagraph (A) finds that the law is significantly inconsistent with the Fiscal Plan for the
fiscal year, it shall issue a certification of such
finding, together with the entity’s reasons for
such finding.

75a
(3) NOTIFICATION.—The Oversight Board
shall send a notification to the Governor and the
Legislature if—
(A) the Governor submits a law to the Oversight Board under this subsection that is not
accompanied by the estimate required under
paragraph (2)(A);
(B) the Governor submits a law to the Oversight Board under this subsection that is not
accompanied by either a certification described
in paragraph (2)(B) or (2)(C); or
(C) the Governor submits a law to the Oversight Board under this subsection that is accompanied by a certification described in paragraph (2)(C) that the law is significantly inconsistent with the Fiscal Plan.
(4) OPPORTUNITY TO RESPOND TO NOTIFICATION.—
(A) FAILURE TO PROVIDE ESTIMATE
OR CERTIFICATION.— After sending a notification to the Governor and the Legislature
under paragraph (3)(A) or (3)(B) with respect to
a law, the Oversight Board may direct the Governor to provide the missing estimate or certification (as the case may be), in accordance
with such procedures as the Oversight Board
may establish.
(B) SUBMISSION OF CERTIFICATION
OF SIGNIFICANT INCONSISTENCY WITH
FISCAL PLAN AND BUDGET.—In accordance with such procedures as the Oversight

76a
Board may establish, after sending a notification to the Governor and Legislature under
paragraph (3)(C) that a law is significantly inconsistent with the Fiscal Plan, the Oversight
Board shall direct the territorial government
to—
(i) correct the law to eliminate the inconsistency; or
(ii) provide an explanation for the inconsistency that the Oversight Board finds reasonable and appropriate.
(5) FAILURE TO COMPLY.—If the territorial
government fails to comply with a direction given
by the Oversight Board under paragraph (4) with
respect to a law, the Oversight Board may take
such actions as it considers necessary, consistent
with this Act, to ensure that the enactment or enforcement of the law will not adversely affect the
territorial government’s compliance with the Fiscal Plan, including preventing the enforcement or
application of the law.
(6) PRELIMINARY REVIEW OF PROPOSED
ACTS.—At the request of the Legislature, the
Oversight Board may conduct a preliminary review of proposed legislation before the Legislature
to determine whether the legislation as proposed
would be consistent with the applicable Fiscal
Plan under this subtitle, except that any such preliminary review shall not be binding on the Oversight Board in reviewing any law subsequently
submitted under this subsection.

77a
(b) EFFECT OF APPROVED FISCAL PLAN ON
CONTRACTS, RULES, AND REGULATIONS.—
(1) TRANSPARENCY IN CONTRACTING.—
The Oversight Board shall work with a covered
territory’s office of the comptroller or any functionally equivalent entity to promote compliance with
the applicable law of any covered territory that requires agencies and instrumentalities of the territorial government to maintain a registry of all contracts executed, including amendments thereto,
and to remit a copy to the office of the comptroller
for inclusion in a comprehensive database available to the public. With respect to Puerto Rico, the
term ‘‘applicable law’’ refers to 2 L.P.R.A. 97, as
amended.
(2) AUTHORITY TO REVIEW CERTAIN
CONTRACTS.—The Oversight Board may establish policies to require prior Oversight Board approval of certain contracts, including leases and
contracts to a governmental entity or governmentowned corporations rather than private enterprises that are proposed to be executed by the territorial government, to ensure such proposed contracts promote market competition and are not inconsistent with the approved Fiscal Plan.
(3) SENSE OF CONGRESS.—It is the sense of
Congress that any policies established by the
Oversight Board pursuant to paragraph (2) should
be designed to make the government contracting
process more effective, to increase the public’s
faith in this process, to make appropriate use of
the Oversight Board’s time and resources, to make

78a
the territorial government a facilitator and not a
competitor to private enterprise, and to avoid creating any additional bureaucratic obstacles to efficient contracting.
(4) AUTHORITY TO REVIEW CERTAIN
RULES, REGULATIONS, AND EXECUTIVE ORDERS.—The provisions of this paragraph shall apply with respect to a rule, regulation, or executive
order proposed to be issued by the Governor (or the
head of any department or agency of the territorial
government) in the same manner as such provisions apply to a contract.
(5) FAILURE TO COMPLY.—If a contract,
rule, regulation, or executive order fails to comply
with policies established by the Oversight Board
under this subsection, the Oversight Board may
take such actions as it considers necessary to ensure that such contract, rule, executive order or
regulation will not adversely affect the territorial
government’s compliance with the Fiscal Plan, including by preventing the execution or enforcement of the contract, rule, executive order or regulation.
(c) RESTRICTIONS ON BUDGETARY ADJUSTMENTS.—
(1) SUBMISSIONS OF REQUESTS TO OVERSIGHT BOARD.—If the Governor submits a request to the Legislature for the reprogramming of
any amounts provided in a certified Budget, the
Governor shall submit such request to the Oversight Board, which shall analyze whether the proposed reprogramming is significantly inconsistent

79a
with the Budget, and submit its analysis to the
Legislature as soon as practicable after receiving
the request.
(2) NO ACTION PERMITTED UNTIL ANALYSIS RECEIVED.—The Legislature shall not
adopt a reprogramming, and no officer or employee of the territorial government may carry out
any reprogramming, until the Oversight Board
has provided the Legislature with an analysis that
certifies such reprogramming will not be inconsistent with the Fiscal Plan and Budget.
(3) PROHIBITION ON ACTION UNTIL
OVERSIGHT BOARD IS APPOINTED.—
(A) During the period after a territory becomes a covered territory and prior to the appointment of all members and the Chair of the
Oversight Board, such covered territory shall
not enact new laws that either permit the
transfer of any funds or assets outside the ordinary course of business or that are inconsistent
with the constitution or laws of the territory as
of the date of enactment of this Act, provided
that any executive or legislative action authorizing the movement of funds or assets during
this time period may be subject to review and
rescission by the Oversight Board upon appointment of the Oversight Board’s full membership.
(B) Upon appointment of the Oversight
Board’s full membership, the Oversight Board
may review, and in its sole discretion, rescind,
any law that—

80a
(i) was enacted during the period between, with respect to Puerto Rico, May 4,
2016; or with respect to any other territory,
45 days prior to the establishment of the
Oversight Board for such territory, and the
date of appointment of all members and the
Chair of the Oversight Board; and
(ii) alters pre-existing priorities of creditors in a manner outside the ordinary
course of business or inconsistent with the
territory’s constitution or the laws of the
territory as of, in the case of Puerto Rico,
May 4, 2016, or with respect to any other
territory, 45 days prior to the establishment
of the Oversight Board for such territory;
but such rescission shall only be to the extent that the law alters such priorities.
(d) IMPLEMENTATION OF FEDERAL PROGRAMS.—In taking actions under this Act, the Oversight Board shall not exercise applicable authorities
to impede territorial actions taken to—
(1) comply with a court-issued consent decree
or injunction, or an administrative order or settlement with a Federal agency, with respect to Federal programs;
(2) implement a federally authorized or federally delegated program;
(3) implement territorial laws, which are consistent with a certified Fiscal Plan, that execute
Federal requirements and standards; or

81a
(4) preserve and maintain federally funded
mass transportation assets.
Section 205. Recommendations on Financial
Stability and Management Responsibility (48
U.S.C. § 2145)
(a) IN GENERAL.—The Oversight Board may at
any time submit recommendations to the Governor or
the Legislature on actions the territorial government
may take to ensure compliance with the Fiscal Plan,
or to otherwise promote the financial stability, economic growth, management responsibility, and service delivery efficiency of the territorial government,
including recommendations relating to—
(1) the management of the territorial government’s financial affairs, including economic forecasting and multiyear fiscal forecasting capabilities, information technology, placing controls on
expenditures for personnel, reducing benefit costs,
reforming procurement practices, and placing
other controls on expenditures;
(2) the structural relationship of departments,
agencies, and independent agencies within the territorial government;
(3) the modification of existing revenue structures, or the establishment of additional revenue
structures;
(4) the establishment of alternatives for meeting obligations to pay for the pensions of territorial
government employees;

82a
(5) modifications or transfers of the types of
services that are the responsibility of, and are delivered by the territorial government;
(6) modifications of the types of services that
are delivered by entities other than the territorial
government under alternative service delivery
mechanisms;
(7) the effects of the territory’s laws and court
orders on the operations of the territorial government;
(8) the establishment of a personnel system for
employees of the territorial government that is
based upon employee performance standards;
(9) the improvement of personnel training and
proficiency, the adjustment of staffing levels, and
the improvement of training and performance of
management and supervisory personnel; and
(10) the privatization and commercialization of
entities within the territorial government.
(b) RESPONSE TO RECOMMENDATIONS BY
THE TERRITORIAL GOVERNMENT.—
(1) IN GENERAL.—In the case of any recommendations submitted under subsection (a) that
are within the authority of the territorial government to adopt, not later than 90 days after receiving the recommendations, the Governor or the
Legislature (whichever has the authority to adopt
the recommendation) shall submit a statement to
the Oversight Board that provides notice as to

83a
whether the territorial government will adopt the
recommendations.
(2) IMPLEMENTATION PLAN REQUIRED
FOR ADOPTED RECOMMENDATIONS.— If the
Governor or the Legislature (whichever is applicable) notifies the Oversight Board under paragraph
(1) that the territorial government will adopt any
of the recommendations submitted under subsection (a), the Governor or the Legislature (whichever is applicable) shall include in the statement a
written plan to implement the recommendation
that includes—
(A) specific performance measures to determine the extent to which the territorial government has adopted the recommendation; and
(B) a clear and specific timetable pursuant
to which the territorial government will implement the recommendation.
(3) EXPLANATIONS REQUIRED FOR RECOMMENDATIONS NOT ADOPTED.—If the Governor or the Legislature (whichever is applicable)
notifies the Oversight Board under paragraph (1)
that the territorial government will not adopt any
recommendation submitted under subsection (a)
that the territorial government has authority to
adopt, the Governor or the Legislature shall include in the statement explanations for the rejection of the recommendations, and the Governor or
the Legislature shall submit such statement of explanations to the President and Congress.

84a
Section 303. Reservation of Territorial Power to
Control Territory and Territorial Instrumentalities. (48 U.S.C. § 2163)
Subject to the limitations set forth in titles I and
II of this Act, this title does not limit or impair the
power of a covered territory to control, by legislation
or otherwise, the territory or any territorial instrumentality thereof in the exercise of the political or
governmental powers of the territory or territorial instrumentality, including expenditures for such exercise, but whether or not a case has been or can be commenced under this title—
(1) a territory law prescribing a method of composition of indebtedness or a moratorium law, but
solely to the extent that it prohibits the payment
of principal or interest by an entity not described
in section 109(b)(2) of title 11, United States Code,
may not bind any creditor of a covered territory or
any covered territorial instrumentality thereof
that does not consent to the composition or moratorium;
(2) a judgment entered under a law described
in paragraph (1) may not bind a creditor that does
not consent to the composition; and
(3) unlawful executive orders that alter,
amend, or modify rights of holders of any debt of
the territory or territorial instrumentality, or that
divert funds from one territorial instrumentality
to another or to the territory, shall be preempted
by this Act.

